<html>
<title> - SCHOOL MEAL REGULATIONS: DISCUSSING THE COSTS AND CONSEQUENCES FOR SCHOOLS AND STUDENTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                        SCHOOL MEAL REGULATIONS: 
                 DISCUSSING THE COSTS AND CONSEQUENCES 
                        FOR SCHOOLS AND STUDENTS 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 27, 2013

                               __________

                           Serial No. 113-25

                               __________

  Printed for the use of the Committee on Education and the Workforce

                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-535 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Martha Roby, Alabama                 Jared Polis, Colorado
Susan W. Brooks, Indiana             Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Frederica S. Wilson, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 27, 2013....................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, ranking minority member, Subcommittee 
      on Early Childhood, Elementary, and Secondary Education, 
      prepared statement of......................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia.................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Brown, Kay E., Director for Eduction, Workforce, and Income 
      Security Issues, Government Accountability Office (GAO)....     9
        Prepared statement of, Internet address to...............    10
    Ford, Sandra E., SNS, director of food and nutrition 
      services, Manatee County School District, Bradenton, FL....    32
        Prepared statement of....................................    34
    Schaper, Megan, SNS, food service director, State College 
      Area School District, State College, PA....................    10
        Prepared statement of....................................    13
    Wootan, Margo G., D.Sc., director, nutrition policy, Center 
      for Science in the Public Interest.........................    18
        Prepared statement of....................................    19

Additional Submissions:
    Davis, Hon. Susan A., a Representative in Congress from the 
      State of California:
        Thornton, Otha, president, National Parent Teacher 
          Association, prepared statement of.....................    49
    Ms. Ford, response to questions submitted for the record.....    52
    Hon. Marcia L. Fudge, a Representative in Congress from the 
      State of Ohio:
        Letter, dated May 28, 2013, from Ms. Ford................    50
        Questions submitted for the record to:
            Ms. Ford.............................................    51
            Ms. Schaper..........................................    54
    Mr. Rokita, questions submitted for the record to:
        Ms. Ford.................................................    51
        Ms. Schaper..............................................    54
    Ms. Schaper, response to questions submitted for the record..    55


                        SCHOOL MEAL REGULATIONS:
                 DISCUSSING THE COSTS AND CONSEQUENCES
                        FOR SCHOOLS AND STUDENTS

                              ----------                              


                        Thursday, June 27, 2013

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:06 a.m., in 
room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Petri, Roe, 
Thompson, Brooks, Scott, Davis, Polis, and Wilson.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Casey Buboltz, Coalitions and Member Services 
Coordinator; Heather Couri, Deputy Director of Education and 
Human Services Policy; Lindsay Fryer, Professional Staff 
Member; Nancy Locke, Chief Clerk; Krisann Pearce, General 
Counsel; Jenny Prescott, Staff Assistant; Mandy Schaumburg, 
Education and Human Services Oversight Counsel; Dan Shorts, 
Legislative Assistant; Nicole Sizemore, Deputy Press Secretary; 
Alex Sollberger, Communications Director; Alissa Strawcutter, 
Deputy Clerk; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Kelly Broughan, Minority Education Policy 
Associate; Jamie Fasteau, Minority Director of Education 
Policy; Scott Groginsky, Minority Education Policy Advisor; 
Brian Levin, Minority Deputy Press Secretary/New Media 
Coordinator; and Michael Zola, Minority Deputy Staff Director.
    Chairman Rokita. Good morning. A quorum being present, the 
subcommittee will come to order.
    Welcome to today's subcommittee hearing. I would like to 
start by thanking our panel of witnesses for joining us to 
discuss the effect of new federal school meal program 
regulations.
    In 2010, the democratic Congress passed the Healthy, 
Hunger-Free Kids Act, which reauthorized the Child Nutrition 
Act of 1966 and required the United States Department of 
Agriculture to issue several regulations for schools and 
districts participating in the National School Lunch and School 
Breakfast Programs.
    While well-intended, these new regulations have essentially 
put the federal government in the business of dictating the 
type, the amount, and even the color of food that can and 
cannot be served in school cafeterias.
    Under the USDA's new rules, participating schools are 
required to limit the calorie intake of elementary and high 
school students, even those enrolled in athletic programs.
    It provides certain fruits and vegetables regardless of 
cost or availability; designs meals around certain mandated 
color categories and strict protein and grain limits, and 
dramatically reduces sodium content over the next 10 years.
    Thankfully, USDA agreed to temporarily suspend its weekly 
limits on protein and grain servings after an outcry from local 
school officials and parents, but schools need long-term 
certainty just like businesses and relief from these burdensome 
regulations.
    In Indiana, my home state, more than 500,000 Hoosier 
students are eligible for free and reduced lunch meals through 
the USDA. That is more than 47 percent of the entire student 
population in Indiana, and while we want to ensure that 
eligible students who need access have it, this number is 
alarming to me and is an issue we will explore in the future.
    But today we are looking at the cost of burdensome 
regulations. Providing students healthier meals is a laudable 
goal we all share, but the stringent rules are creating serious 
headaches for schools and students.
    Because the law requires students to take fruits and 
vegetables for lunch, even if they have no intention of eating 
them, schools are struggling with increased waste. After 
implementing the new standards a year early, one Florida school 
district estimated students threw out $75,000 worth of food.
    At Dedham High School in Massachusetts, providing the 
required vegetables in 1500 meals each week costs the district 
about $111 a day, but administrators report many students just 
throw the fresh vegetables right into the trash.
    Smaller portions, limited options, and unappetizing entrees 
have caused some students to protest new cafeteria food. High 
school students, athletes in particular, claim the calorie 
limits leave them hungry, and have resorted to bringing 
additional meals and snacks from home.
    Other students have simply stopped participating in the 
school lunch program altogether. According to the USDA in 
February, the average daily participation in the school lunch 
program has dropped about 3 percent in the past year.
    In one New York school district, the number of kids buying 
lunch dropped by half just 4 months after the implementation of 
the new federal guidelines. This decline in participation made 
it more difficult for the school to afford to serve lunches and 
breakfasts that met the federal meal requirements.
    As a result, the district's food operation went $59,000 in 
the red and local leaders ultimately decided to opt-out of the 
National School Lunch Program.
    The USDA's Food and Nutrition Service estimated the cost of 
compliance with new nutrition standards will reach $3.2 billion 
over the next 5 years. With states already facing large budget 
deficits, these regulations are placing an unnecessary burden 
on schools and districts at the expense of low-and middle-
income students.
    Making matters worse, schools are now bracing themselves 
for additional regulations over ``competitive foods,'' quote, 
unquote; the snacks, beverages, and meals sold in schools not 
subject to reimbursement by the federal government.
    This means the government would also be put in charge of 
mandating the type of foods that can be sold at school events, 
in vending machines, at snack bars, and so forth, piling more 
costs and requirements on school districts.
    The National Lunch and Breakfast Programs are critical to 
ensuring low-income students have access to healthy and 
affordable meals, but costly regulations dictated from the 
federal government could reduce participation in these very 
programs.
    As policymakers, we have a responsibility to discuss the 
concerns raised by students, parents, and school administrators 
as we work to put these programs on a more sustainable path for 
the future.
    I look forward to the hearing today, from hearing from our 
panel today and I am confident that their testimony will 
provide valuable insight into how these regulations are 
affecting federal child nutrition programs.
    And I now will yield to my distinguished colleague, Mr. 
Bobby Scott for his opening remarks.
    Mr. Scott?
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    In 2010, the Democratic Congress passed the Healthy, Hunger-Free 
Kids Act, which reauthorized the Child Nutrition Act of 1966 and 
required the United States Department of Agriculture to issue several 
regulations for schools and districts participating in the National 
School Lunch and School Breakfast Programs. While well-intended, these 
new regulations have essentially put the federal government in the 
business of dictating the type, amount, and even color of food that can 
and cannot be served in school cafeterias.
    Under the USDA's new rules, participating schools are required to 
limit the calorie intake of elementary and high school students, even 
those enrolled in athletic programs; provide certain fruits and 
vegetables regardless of cost or availability; design meals around 
certain mandated 'color categories' and strict protein and grain 
limits; and dramatically reduce sodium content over the next ten years. 
Thankfully, USDA agreed to temporarily suspend its weekly limits on 
protein and grain servings after an outcry from local school officials 
and parents, but schools need long-term certainty and relief from these 
burdensome regulations.
    In Indiana, my home state, more than 500,000 Hoosier students are 
eligible for free and reduced meals through the USDA--more than 47% of 
the entire student population. While we want to ensure that eligible 
students who need access have it, this number is alarming and is an 
issue we will explore in the future.
    But today we are looking at the cost of burdensome regulations. 
Providing students healthier meals is a laudable goal we all share, but 
the stringent rules are creating serious headaches for schools and 
students.
    Because the law requires students to take fruits and vegetables for 
lunch, even if they have no intention of eating them, schools are 
struggling with increased waste. After implementing the new standards a 
year early, one Florida school district estimated students threw out 
$75,000 worth of food.
    At Dedham High School in Massachusetts, providing the required 
vegetables in 1500 meals each week costs the district about $111 a 
day--but administrators report many students just throw the fresh 
vegetables right into the trash.
    Smaller portions, limited options, and unappetizing entrees have 
caused some students to protest new cafeteria food. High school 
students, athletes in particular, claim the calorie limits leave them 
hungry, and have resorted to bringing additional meals and snacks from 
home. Other students have simply stopped participating in the school 
lunch program altogether. According to the USDA in February, the 
average daily participation in the school lunch program had dropped 
about 3 percent in the past year.
    In one New York school district, the number of kids buying lunch 
dropped by half just four months after the implementation of new 
federal guidelines. This decline in participation made it more 
difficult for the school to afford to serve lunches and breakfasts that 
met the federal meal requirements. As a result, the district's food 
operation went $59,000 in the red and local leaders ultimately decided 
to opt-out of the National School Lunch Program.
    The USDA's Food and Nutrition Service estimated the cost of 
compliance with new nutrition standards will reach $3.2 billion over 
the next five years. With states already facing large budget deficits, 
these regulations are placing an unnecessary burden on schools and 
districts at the expense of low-and middle-income students.
    Making matters worse, schools are now bracing themselves for 
additional regulations over ``competitive foods''--the snacks, 
beverages, and meals sold in schools not subject to reimbursement by 
the federal government. This means the government would also be put in 
charge of mandating the type of foods that can be sold at school 
events, in vending machines, at snack bars, and so forth, piling more 
costs and requirements on school districts.
    The National Lunch and Breakfast programs are critical to ensuring 
low-income students have access to healthy and affordable meals, but 
costly regulations dictated from the federal government could reduce 
participation in these important programs. As policymakers, we have a 
responsibility to discuss the concerns raised by students, parents, and 
school administrators as we work to put these programs on a more 
sustainable path for the future.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman, for holding the hearing 
today.
    I want to first join my colleagues on both sides of the 
aisle in sending our well-wishes to the ranking member of this 
subcommittee, Carolyn McCarthy. Her expertise and thoughtful 
insight and warmth are certainly missed, but we look forward to 
having her back as soon as possible and wish her a speedy 
recovery.
    I would also like to thank the panel of witnesses for being 
with us today, and I look forward to hearing from you 
momentarily.
    In 2010, Congress passed and the President signed into law 
the Healthy, Hunger-Free Kids Act of 2010. This bipartisan 
legislation dramatically improved federal child nutrition 
programs by increasing access and approving standards for foods 
served to our children.
    This legislation updated our nation's nutrition guidelines 
which had not been revised in over a decade. It is our moral 
imperative to ensure that children are getting the healthy 
meals they need in order to be able to succeed in school and 
throughout life.
    Failing to provide our nation's children with nutritious 
meals has several negative consequences. Food that is too high 
in fat content and calories contributes to childhood obesity. 
We know that our obese children are not only at high risk of 
chronic diseases like heart disease and diabetes, but they are 
also more likely to struggle with their weight as adults.
    Medical costs of the United States obesity epidemic are 
enormous. Approximately 10 percent of our nation's health care 
spending goes toward treating conditions directly related to 
unhealthy weight. Conversely, food that is insufficiently 
nutritious fails to give children the sustenance they need to 
focus in school.
    For millions of children in the United States, school-
provided meals are their primary source of nutrition, and we 
know children cannot learn on an empty stomach.
    Research clearly shows that children who have access to 
healthy school meals are healthy and perform better than 
children who do not. A 2005 study published in the national--in 
the Journal of Nutrition found that children who lack reliable, 
healthy meals in kindergarten are noticeably behind their peers 
in reading and math by the third grade.
    A 2013 study published in the Journal of American Medical 
Association Pediatrics found that students eating free or low-
cost meals in states where nutrition content of lunches exceed 
the USDA standards are less likely to be overweight or obese 
than students getting these meals in states that only 
marginally meet the nutrition standards.
    In addition to being evidence-based, we also know that 
school lunch programs based on the nutrition standards are 
strongly supported by the public. A June 2013 Kaiser Permanente 
study found that 90 percent of Americans believed that schools 
should take a role in combating obesity and more than 80 
percent of people support the new federal nutrition standards 
for school meals.
    Furthermore, school districts across the country are 
successfully implementing the standards established by the 
Healthy, Hunger-Free Kids Act of 2010.
    School administrators tell us that their students are now 
eating more fruits, vegetables, and food cooked from scratch 
and learning about ways to continue eating healthy throughout 
their lives.
    So I am glad that today we are having the opportunity to 
discuss the regulations that govern the school meal programs 
and possible ways to improve and strengthen them. It is 
important throughout this process that we keep in mind the goal 
of these nutrition programs and that is to provide children 
with healthy foods that can support them as they receive an 
education.
    This is our goal and while Congress is and should be 
actively involved in crafting policy to achieve that goal, we 
must make sure that school meal guidelines are crafted based on 
evidence and science, not on the political whims of 
politicians.
    And while we investigate possible ways to improve school 
meal programs, it is important to remember that we want the 
next generation to be stronger, smarter, and healthier, then we 
need to invest in these nutrition programs that make what we 
are doing the best that we can do for our children.
    We must make sure that their country's future, doctors, 
nurses, teachers, engineers, and business owners are being put 
on the path to success, and providing them with nutritious 
foods is very much part of that obligation.
    I want to thank everyone for being here this morning.
    I would like to thank--ask unanimous consent, Mr. Chairman, 
that a written opening statement from Ranking Member McCarthy 
be entered into the record.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Ranking Minority Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Thank you, Mr. Chairman for calling this hearing to discuss the 
issue of school nutrition. As you may know, in the 111th Congress I had 
the privilege of serving as the Chairwoman of the Healthy Families and 
Communities Subcommittee. In that capacity, I often called upon 
nutrition professionals to interact with Members and educate us on this 
very important issue. I am hopeful that this Subcommittee will continue 
that very important dialogue today.
    As I have asserted before, I believe that our nation is in the 
midst of a nutritional crisis. On one end of the spectrum, our nation 
is experiencing record high rates in obesity. The Centers for Disease 
Control and Prevention (CDC) has found that more than a third of our 
nation is obese. On the other end of the spectrum, the Department of 
Agriculture's (USDA) latest data in 2011 has found that nearly 15% of 
households experience food insecurity over the course of the year. For 
a nation as wealthy and influential as ours, these figures are simply 
unacceptable.
    I believe a constructive way to help combat this two-pronged 
nutritional crisis is to provide regular healthy meals in our nation's 
schools. The CDC recognizes the importance of healthy habits beginning 
at school, stating, ``schools are in a unique position to promote 
healthy eating and help ensure appropriate nutrient intake among 
students.'' Is there a better opportunity to promote effective change 
than in our nation's schools? The answer is no. Learning does not begin 
and end in the classroom. Most Members agree that a well-rounded 
education includes physical education and, in turn, I would contend 
that a healthy lifestyle does not begin and end on the athletic field. 
Healthy living entails a holistic solution, one that should include 
regular instruction in health sciences and, as we will focus on today, 
a thoughtful health-conscience menu of food and drink served to 
students regardless of economic circumstance.
    The Congress, in my opinion, should be in the business of 
incentivizing healthy eating habits at an early age. In December 2010, 
we took a step forward on this path by passing the Healthy, Hunger-Free 
Kids Act (HHFKA), a bill improving nutritional standards and ensuring 
that students have access to healthy foods while in school. The 
Congress authorized USDA to establish nutritional standards based on 
scientific evidence for school breakfasts, lunches and for foods and 
beverages sold to students in vending machines.
    As with most pieces of legislation, the HHFKA is not perfect. Since 
its passage, I have observed some issues with the USDA's rulemakings 
and implementation. For example, I have reservations over the USDA's 
rule to set minimum standards on grains and meats used in schools and I 
am hopeful that the Department will permanently do away with the limit 
going forward. I look forward to hearing from our witnesses and using 
their testimony to both further inform the debate on school nutrition 
and strengthen HHFKA.
    I would like to conclude my opening remarks on this note. Habits 
formed at an early age are difficult to break. In 2011, Nestle, the 
largest food company in the world, confirmed this by conducting a study 
that yielded that unhealthy habits attained early in children mirror 
those of adults. The USDA has evidence showing the prevalence rate of 
very low food security households is on the uptick and the American 
Heart Association notes that the proportion of children ages 5 to 17 
who are classified as obese was five times higher in 2009 than it was 
in 1973. So, before we hear the tired arguments from detractors that 
the federal government is trying to create a ``nanny state'' by 
promoting regular healthy meals in schools, I ask you how long are we 
gong to leave our nation's youth, our country's future, out to dry?
    Thank you, Mr. Chairman.
                                 ______
                                 
    Chairman Rokita. Without objection.
    Mr. Scott. I yield back.
    [The statement of Mr. Scott follows:]

Prepared Statement of Hon. Robert C. ``Bobby'' Scott, a Representative 
                 in Congress From the State of Virginia

    Good morning and thank you, Chairman, for holding this hearing 
today. First, I want to join my colleagues on both sides in sending our 
well wishes to the Ranking Member of this Subcommittee, Rep. Carolyn 
McCarthy. Her expertise, thoughtful insight and warmth are certainly 
missed, but we look forward to having her back as soon as possible and 
wish her a speedy recovery. I would also like to thank the panel of 
witnesses for being with us here today and I look forward to hearing 
from you momentarily.
    In 2010, Congress passed and the President signed into law the 
Healthy, Hunger-Free Kids Act of 2010. This bipartisan legislation 
dramatically improved federal child nutrition programs by increasing 
access and improving the standards of the foods served to our children. 
This legislation updated our nation's nutrition guidelines, which had 
not been revised in over a decade.
    It is our moral imperative to ensure that kids are getting the 
healthy meals they need to be able to succeed in school and throughout 
life. Failing to provide our nation's youth with nutritious meals has 
several negative consequences. Food that is too high in fat content and 
calories contributes to childhood obesity.
    We know that obese children are not only at higher risk for chronic 
diseases like heart disease and diabetes, but they are also more likely 
to struggle with their weight as adults. The medical costs of the U.S. 
obesity epidemic are enormous--approximately 10% of our nation's health 
care spending goes toward treating conditions related to unhealthy 
weight. Conversely, food that is insufficiently nutritious fails to 
give children the sustenance they need to focus in school. For millions 
of children in the United States, school-provided meals are their 
primary source of nutrition, and we know that children cannot learn on 
an empty stomach.
    Research clearly shows that children who have access to healthy 
school meals are healthier and perform better than children who do not. 
A 2005 study published in the Journal of Nutrition found that children 
who lack reliable, healthy meals in kindergarten are noticeably behind 
their peers in reading and math by the third grade.
    A 2013 study published in JAMA Pediatrics found that students 
eating free or low-cost meals in states where the nutritional content 
of lunches exceeded USDA standards were less likely to be overweight or 
obese than students getting these meals in states that only marginally 
met the USDA nutrition standards.
    In addition to being evidence-based, we also know that school lunch 
programs based on nutrition standards are strongly supported by the 
public. A June 2013 Kaiser Permanente survey found that 90% of 
Americans believe schools should take a role in combating obesity and 
more than 80% of people support the new federal nutritional standards 
for school meals.
    Furthermore, school districts across the country are successfully 
implementing the standards established in The Healthy, Hunger-Free Kids 
Act of 2010. School administrators tell us that their students are now 
eating more fruits, vegetables, and food cooked from scratch, and 
learning about ways to continue eating healthy throughout their lives.
    I am glad that today we have an opportunity discuss the regulations 
that govern the school meal programs and possible ways to improve and 
strengthen them. It is important throughout this process that we keep 
in mind the goal of these nutrition programs: to provide children with 
healthy foods that can support them as they receive an education.
    This is our goal, and while Congress is and should be actively 
involved in crafting the policy to achieve that goal, we must make sure 
that school meal guidelines are crafted based on evidence and science, 
and not the political whims of politicians. While we investigate 
possible ways to improve school meal programs, it is important to 
remember that if we want the next generation to be stronger, smarter, 
and healthier, then we need to invest in these nutrition programs to 
make sure that we are doing the best that we can for our children.
    We must make sure that the county's future doctors, nurses, 
teachers, engineers, and business owners are being put on a path to 
success, and providing them with nutritious foods is very much part of 
that obligation.
    With that, I again thank everyone for being here this morning and 
yield back to the Chairman.
                                 ______
                                 
    Chairman Rokita. Thank you, Mr. Scott.
    Pursuant to committee Rule 7(c), all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record, and without objection, the 
hearing record will remain open for 14 days to allow 
statements, questions for the record, and other extraneous 
material referenced during the hearing to be submitted into the 
official record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Ms. Kay Brown is the director of Education, Workforce, and 
Income Security Issues at the Government Accountability Office. 
She is currently responsible for leading GAO's work-related 
child welfare, child care, domestic nutrition assistance, 
temporary assistance for needy families, otherwise noted in 
these circles as TANF, and services for older adults.
    And--so, welcome. Thank you for being here.
    To introduce our second witness, I turn now and recognize 
my distinguished colleague from Pennsylvania, Mr. Thompson.
    Mr. Thompson. Thank you, Chairman.
    I appreciate the honor and distinct privilege of 
introducing Ms. Megan Schaper, a constituent of the 
Pennsylvania 5th Congressional District. Ms. Schaper is the 
food services director of the State College Area School 
District in State College, Pennsylvania.
    Ms. Schaper received her B.S. in hotel, restaurant, and 
institutional management from the Pennsylvania State University 
in 1988. She later became the food service director at the 
Farrell Area School District where more than 80 percent of the 
students receive federally subsidized school meals.
    Since 1993, she has been the food services director of the 
State College Area School District where 17 percent of the 
students are eligible for free and reduced lunch.
    She is responsible for all aspects of the schools' 
cafeteria operations including the planning of the daily menus, 
hiring, training staff, purchasing equipment and supplies, and 
ensuring compliance with USDA regulations for healthy school 
meals.
    In addition, she co-chairs the district's School Health and 
Wellness Council, which is charged with implementing, 
monitoring, and revising the wellness policy. She also holds 
the school nutrition specialist credential and was named the 
Northeast Region's Director of the Year by the School Nutrition 
Association.
    She is on the board of the School Nutrition Association of 
Pennsylvania, is the webpage manager for and a member of the 
Bid Committee for the Pittsburgh Regional Food Services 
Directors.
    I had the opportunity to spend some time with Megan and her 
family last evening, and I welcome her to the committee for 
this important hearing today.
    And I yield back, Chairman.
    Chairman Rokita. Thank you, Mr. Thompson.
    And welcome.
    Dr. Margo Wootan is the--did I pronounce that right--
Wootan. Thank you. Dr. Margo Wootan is the director of 
nutrition policy at the Center for Science in the Public 
Interest, known as CSPI.
    She coordinates and leads the activities of the National 
Alliance for Nutrition and Activity, co-leads the Food 
Marketing Work Group, and is a member of the National Fruit and 
Vegetable Alliance Steering Committee.
    Welcome.
    And then, Ms. Sandra Ford--did I pronounce that right? 
Okay, thank you--is the director of food and nutrition services 
for the Manatee County School district in Bradenton, Florida, 
which has 54 schools and 44,000 students. In addition, Ms. Ford 
has been an active member of the School Nutrition Association 
currently serving as the Board of Directors president.
    Welcome all.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system, and although I am 
officially explaining it for you, it is really a reminder for 
us up here as well, who sometimes can't follow the green, 
yellow, and red as well, but it is pretty self-explanatory.
    You will each have 5 minutes to present your testimony. 
When you begin, the light in front of you will turn green. When 
1 minute is left, it will turn yellow, and when your time is 
expired, the light will turn red, and I will enforce that with 
the gavel.
    So at that point, please have your remarks wrapped up as 
best as possible, and after everyone has testified, members 
will each have 5 minutes to ask questions of the panel.
    So with that, I would now like to recognize Ms. Brown for 5 
minutes.

 STATEMENT OF KAY E. BROWN, DIRECTOR FOR EDUCATION WORKFORCE, 
 AND INCOME SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE 
                             (GAO)

    Ms. Brown. Thank you.
    Chairman Rokita and members of the subcommittee, thank you 
for inviting me here today to discuss the challenges that local 
officials face while implementing the new requirements for the 
National School Lunch Program.
    My remarks are based on our discussions with USDA and 
school food authority officials, food industry representatives, 
and site visits to eight school districts across the country 
where we observed lunches and spoke with students in 17 
schools.
    The new requirements aim to improve the nutritional quality 
of school lunches to benefit the more than 30 million children 
who participate in the program each month and school food 
authority officials in all eight districts we visited expressed 
support for this goal. However, the changes pose multiple 
challenges for them.
    First, the new limits on the amounts of meat or meat 
alternates and grains led officials in all eight districts to 
modify or eliminate some popular menu items.
    For example, the limits on grains led one district to 
decrease the size of the sub roll used in a very popular deli 
sandwich line, and two districts stopped serving peanut butter 
and jelly sandwiches as a daily option in elementary schools.
    Half the districts noticed that student reactions to these 
changes were generally negative. In addition to the limits on 
meats and grains, lunches were also expected to meet minimum 
and maximum calorie requirements.
    School officials in five of the districts we visited told 
us it was difficult to meet the minimum calorie requirements 
for grades nine through 12 while also adhering to the meat and 
grain limits.
    As a result, some added foods such as ice cream, butter, or 
ranch dressing that, while allowable, generally did not improve 
the nutritional content of the meal.
    In response to these challenges, USDA temporarily lifted 
the limits on meats and grains. We believe SFAs can benefit 
from more certainty and are recommending that the department 
permanently remove the meat and grain limits. USDA officials 
told us this week that they are working on a way to accomplish 
this.
    Also, half of the districts we visited reported 
difficulties with student acceptance of other required changes 
such as the use of some whole grain rich products especially 
pastas as well as two of the five required vegetable 
categories.
    However, I should note that some of our districts had begun 
adding whole grains into their menus before the current school 
year and have seen student acceptance improve over time.
    Further, the requirement that each student must take at 
least one fruit or vegetable has led to food waste in some but 
not all cases. In seven of 17 lunch periods we observed, we saw 
many students throw away some or all of their fruits and 
vegetables. However, we also observed students consume sizable 
quantities of fruits and vegetables in the other 10 schools.
    Also, in five of our eight districts, school officials 
heard complaints that the new lunch requirements were leaving 
some students hungry. For example, in one district, a high 
school principal told us that athletic coaches expressed 
concerns that student athletes were hungrier this year than in 
past years.
    These concerns were likely related to decreased entree 
sizes; however, we observed that when students took all of the 
offered lunch components their meals were substantially larger 
in size than the students who had not taken or eaten all of the 
items offered.
    Finally, school food officials also expressed concern about 
the impact of compliance with the new requirements on their 
food costs and overall budgets. All eight reported increases in 
fruit and vegetable costs this year.
    Further, they told us that they experienced decreases in 
participation in part because of the new lunch requirements as 
well as other factors. In fact, three expressed concerns about 
the impact of the changes on their financial stability overall.
    However, I should note that we have not yet obtained end of 
year financial data from the districts we visited nor have we 
fully analyzed the changes in participation. We will be 
providing additional information on these and other related 
issues in our report later this year.
    In conclusion, while many students likely received more 
nutritious lunches during the last school year, implementation 
challenges remain that will take time to resolve.
    This concludes my prepared statement. I am happy to answer 
any questions you have.
    [The statement of Ms. Brown may be accessed at the 
following Internet address:]

                  http://gao.gov/products/GAO-13-708T

                                ------                                

    Chairman Rokita. Thank you very much for your testimony.
    Ms. Schaper, you are recognized for 5 minutes.

  STATEMENT OF MEGAN SCHAPER, DIRECTOR OF FOOD AND NUTRITION 
          SERVICES, STATE COLLEGE AREA SCHOOL DISTRICT

    Ms. Schaper. Good Morning, Chairman Rokita, Mr. Scott, and 
members of the committee. Thank you for this opportunity to 
meet with you this morning.
    In my district like most districts, there is an expectation 
that my department operates as a business and is able to cover 
all of its own expenses.
    Revenue to operate school food service programs generally 
comes from either government reimbursements or from cash sales 
to customers. The amount of funds received in either case is 
directly determined by the number of students we can convince 
to be customers in the school cafeteria.
    My school district was well on the way to meeting the new 
nutrition standards when we ended the 2011/12 school year. We 
served an abundance of fruits and vegetables every day, our 
breads were whole-grain rich, and we knew that our meals were 
well within the fat and calorie ranges as required.
    That said, we still had extremely negative reactions from 
students and families with the meals planned to be in 
compliance with the meat and grain caps.
    Sandwiches and entree salads could not be offered 5 days a 
week at our elementary schools without respectively exceeding 
or not reaching the grain limits. At secondary schools, popular 
entres had to be eliminated or substantially reduced in size 
and in our customers' opinions, the larger fruits and 
vegetables did not make up for this.
    Some schools found that they had to add non-grain desserts 
to menus just to meet calorie minimums. I was pleased when the 
caps were temporarily removed this year, but this reversal was 
difficult for manufacturers and distributors who had invested 
in developing and stocking items specifically to help the 
schools meet the new regulations.
    The businesses that supply schools need to know that the 
money spent developing, producing, and stocking products isn't 
wasted. I strongly encourage Congress to make the elimination 
of these caps permanent.
    Participation dropped in my schools by 34,000 meals or 3 
percent. Anticipating negative reactions to the new standards, 
my district opted to utilize nonfederal funding to justify not 
raising our lunch prices this year as would have been required 
under Section 205, and therefore I believe we avoided larger 
decreases in participation.
    The lunch price equity rule required many other districts 
to raise meal prices. Higher meal prices combined with less 
satisfaction with the meals in general dealt the proverbial 
one-two punch to the participation levels in many districts.
    Statewide in Pennsylvania participation has dropped by 5.6 
percent through March with the majority of that loss in the 
paid-meal category.
    If school meal prices are not competitive with the cost of 
a home-packed meal we will continue to lose paying customers 
and run the risk of becoming a program that serves primarily 
low income students with all the stigma attached and districts 
will not be able to generate the sales volume required to be 
financially sound.
    Despite selling fewer meals, my district's food cost 
increased by $40,000 as a result of the enhanced fruit and 
vegetable requirements. My students do like fruits and 
vegetables and generally did take the required portion; however 
teenagers especially made sure that my servers knew that we 
could make them take, but could not make them eat, something 
they did not want.
    Director--this phenomenon seemed to be magnified in many of 
my colleague's districts. Directors across Pennsylvania are 
discouraged to be purchasing food that is simply being thrown 
away untouched.
    Sometimes the standards actually got in the way of 
providing the best nutrition to students. I have several sites 
where it is logistically very difficult to provide choices. On 
the day of the week where we provide legumes as the vegetable 
of the day, most children do not eat a vegetable at all.
    To be most effective at ending hunger and curbing childhood 
obesity, schools need the flexibility to provide healthful 
lunches that students actually want to purchase and eat.
    To underscore the difficulty that directors are having 
meeting the new regulations, to date, only about 64 percent of 
Pennsylvania schools have been certified as meeting the new 
standards.
    Our programs are reeling from the effects of the past year 
yet we have a significant new challenge in the pending 
competitive foods rule that has the potential to make it even 
harder to provide quality school meals.
    Competitive foods generated 21 percent of my program's 
total income this year. That income will be reduced by at least 
half. My district, like many others, relies on the income to 
purchase better quality foods for student meals than we would 
otherwise be able to afford.
    It also provides the funds needed to replace equipment, 
provide staff training, and engage in educational initiatives 
for students. And my experience has been that this income will 
not be improved with higher meal sales.
    This rule may force schools that receive less federal 
funding to opt out of the lunch program altogether. In fact, 
the session entitled ``On or Off the National School Lunch 
Program'' was extremely well-attended at the Pennsylvania 
Association of School Business Officials this past March.
    If schools opt to leave the school lunch program, there is 
no assurance that students will receive a meal that meets USDA 
nutrition standards or in fact receives a meal at all.
    To balance budgets, schools will have to cut jobs. In my 
district, it may mean eliminating the breakfast program so that 
we can reduce employee hours and save money on benefits and 
pensions, and the effect will be far-reaching affecting school 
food producers, equipment manufacturers, and others who support 
our industry.
    A program--I am sorry. My district and I are committed to 
providing healthful meals and the foods that make a positive 
contribution to our students' well-being.
    However, a program that cannot remain fiscally solvent due 
to decreased participation, decreased opportunities to generate 
revenue, and mandated increases in program costs is not 
positioned to provide high-quality, healthful meals to 
students.
    Thank you for your time this morning.
    [The statement of Ms. Schaper follows:]

    Prepared Statement of Megan Schaper, SNS, Food Service Director,
         State College Area School District, State College, PA

    Good Morning, Chairman Rokita, Mr. Scott, and members of the 
committee. My name is Megan Schaper. I am the food service director of 
the State College Area School District located in central Pennsylvania. 
I have been a school nutrition professional for 23 years and have 
served at my current district for the past 20 years. I am an active 
member of the School Nutrition Association and the Pittsburgh Regional 
Food Service Directors. In my roles for these organizations, I have had 
extended conversations with many of Pennsylvania's directors. I thank 
you for this opportunity to share with you my--and many of my 
colleagues'--concerns about the cost and consequences of the newest 
school meals regulations.
    The State College Area School District has an enrollment of 6,900 
students and the budget for my department is 3.4 million dollars. 
Sixteen percent of our students are eligible to receive subsidized 
school meals. Like most districts, there is an expectation that my Food 
Service Department operates as a business and is able to cover all of 
its own expenses without financial support from the district's general 
fund.
    One school year into the implementation of the new meal standards, 
it is a good time to consider if the nutrition standards and lunch 
price equity rule are working as intended. I recognize and appreciate 
the seriousness of childhood hunger and health issues that these 
changes are intended to help curb. However, in the rush to fix these 
problems, we've implement changes without adequate testing or pilots to 
know if the new standards would, in fact, be helpful or hurtful to our 
efforts.
    The past school year was extremely challenging for school nutrition 
professionals. The new nutrition standards coupled with lunch price 
equity lunch price increases resulted in fewer students choosing to eat 
lunch at school. At the same time that programs were experiencing lower 
revenue from the sale of meals, food and labor costs dramatically 
increased. While dealing with these difficult financial circumstances, 
many of us in the industry wonder if we aren't, in fact, making it more 
difficult for schools to help ensure that students are well and 
properly nourished.
    To understand why we wonder this, you need to be aware of the 
paradigm of how school food service departments are funded. Revenue 
generally comes from two different sources, government reimbursements 
and cash sales to customers. The amount of funds received from either 
source is directly determined by the number of students we can convince 
to be a customer of the school cafeteria. When school cafeterias are 
able to provide the foods and services that our customers want, while 
still meeting nutritional standards, we are positioned to generate the 
volume of participation needed to fund great programs.
    My school district was well on the way to meeting the new nutrition 
standards when we ended the 2011-12 school year. We felt that we would 
only need to make minor tweaks to our menu to remain in compliance. We 
served an abundance of fruits and vegetables every day and most of our 
students liked and chose these foods. Most of the breads served were 
whole grain rich. Utilizing Nutrient Standard Menu Planning, we knew 
that our meals were within the fat and calorie ranges required.
    We were ahead of the curve, still we had extremely negative 
reactions from students and families with the meals planned to be in 
compliance with the meat and grain caps. In our district, we had to 
discontinue serving some of our most popular lunches even though they 
met the calorie and fat targets and provided fruits, vegetables, and 
milk in the required quantities. Sandwiches and entree salads could not 
be offered five days a week at the elementary level without 
respectively exceeding or not reaching the grain limits. Both servers 
and customers were confused as to why the chicken tenders and the 
entree salads each needed to be served with a different type of bread 
item and the customer getting the chicken tenders couldn't opt for the 
type of roll being served with the salad on the same serving line.
    At the secondary schools, popular and reasonably sized hamburgers, 
pizza, and chicken fillet sandwiches all had to be substantially 
reduced in size even though the meals were within the calorie range. 
The fact that the side salads had doubled in size to two-cups or that 
students could take two portions of fruit with the lunch wasn't 
adequate compensation in our customers' opinions.
    Further, the limits on meat and grains made it difficult to 
consistently meet the calorie requirements for many directors. Some 
schools found that they had to add non-grain desserts--jello, ice 
cream, baked potato chips--to the menu just to meet the calorie 
minimums. These desserts added no positive nutrients to the meal other 
than calories and increased the cost of providing the meal. But, 
serving larger portions of nutrient-dense whole grains was not an 
available option.
    The very short time period between learning of the meat and grain 
caps and implementation left manufacturers and suppliers scrambling to 
develop, produce and stock items to meet schools' needs. In September, 
many products that schools needed were not yet available at our 
distributors' warehouses. Just about the time distribution was caught 
up, the caps were removed on a temporary basis. I was pleased when the 
caps were temporarily removed mid-year. But this reversal was difficult 
for manufacturers and distributors who had invested in developing and 
stocking items specifically to help schools meet the caps.
    The businesses that supply schools with food are struggling to know 
what schools want and they need to have some assurance that the money 
spent developing and making products for us isn't wasted. For instance, 
AdvancePierre spent in excess of $100,000 on research for each product 
that they brought to market for schools in the fall. Now, many of those 
items developed to help with the meat cap are no longer wanted by 
directors.
    Manufacturers and menu planners need to know that the caps are 
permanently lifted so that we can move forward without wasting any more 
resources or time. I strongly encourage Congress to make the 
elimination of these caps permanent.
    Participation in my schools suffered this year, dropping by 34,000 
meals or 3%. Though we did rebound some after we were able to adjust 
the menus given the meat/grain flexibility, participation did not fully 
recover. Statewide in Pennsylvania, participation dropped by 9% through 
December with paid meal participation decreasing by 14%. More recent 
statewide data has not yet been made available but it is my 
understanding that participation remained down, especially in the paid 
category, for the entire school year.
    My district was able to fare better than many because we opted to 
not raise our lunch prices for the year. Under Section 205, the equity 
in school lunch pricing rule, we would have been required to raise 
prices by $.05 for the 2012-13 school year even though our lunch prices 
were higher than those of other districts in my area ($2.25 and $2.80 
for elementary and high school lunches respectively). Anticipating that 
there would be some backlash from the smaller entrees, we utilized the 
non-federal funds that my program earns to justify not raising prices.
    The lunch price equity rule required many other districts to raise 
meal prices even though the directors felt that the higher price would 
be more than families would be willing to pay. Higher meal prices, 
combined with less satisfaction with the meals in general, dealt the 
proverbial one-two punch to the participation levels in many districts.
    Local school boards and food service professionals have a vested 
interest in their programs being successful. They can and will make 
meal pricing decisions that reflect what the families in their 
community are able and willing to pay. It is often fiscally more 
advantageous for a program to keep prices low and sell more meals than 
it is to raise prices and reduce program participation.
    Parents at home considering whether to purchase a school meal or to 
provide their child with a packed lunch typically only consider the 
price in relationship to the food cost of the packed meal. They don't 
and won't consider that the school meal price also includes the cost of 
labor, benefits, equipment replacement, utilities, etc. If we are 
unable to keep school meal prices competitive with the cost of a home 
packed meal, we will continue to lose paying customers. In fact, fewer 
children will be influenced by the healthier meal standards if parents 
do not feel that the full priced meal is affordable. And, we run the 
risk of the National School Lunch Program being a program that 
primarily serves only low income students with all the stigma attached.
    Section 205, the equity in school lunch pricing rule of the Healthy 
Hunger-Free Kids Act, gets in the way of school nutrition professionals 
and local school boards doing what they know is best for children, 
communities, and School Nutrition Programs.
    Many programs experienced significant increases in food cost this 
year. My own district's food cost increased by $40,000 even though we 
served 34,000 fewer meals. The larger portions of fruits and vegetables 
were the main reason for this in my district. We were already, for the 
most part, meeting the vegetable sub-group and whole grain 
requirements, so our food cost in 2011-12 already reflected the reality 
that whole grains cost more than white bread and dark greens cost more 
than iceberg lettuce. For many districts, implementing the new standard 
had a much more drastic impact on costs.
    It was especially discouraging for myself and my colleagues to be 
spending more money for food and to not see that investment pay off in 
better student participation. My students generally do like fruits and 
vegetables and we did not have a problem, in most cases, requiring 
students to take the required portion. However, when we did have to 
make a student take a required fruit or vegetable component, it did 
invariably go into the garbage can. Teenagers, especially, made sure 
that my servers knew that we could make them take, but we couldn't make 
them eat, something that they did not want.
    This phenomenon seemed to be magnified in many of my colleagues' 
districts. Directors across Pennsylvania are discouraged to be 
purchasing food that is simply being thrown away untouched.
    Sometimes the standards actually got in the way of providing the 
best nutrition to students. I have several sites where it is 
logistically very difficult to provide choices. So, on the day of the 
week when we provide legumes as the vegetable of the day, most children 
at those sites do not eat a vegetable at all. Prior to this year these 
same schools only served fresh vegetables as we found that the students 
were more likely to eat the fresh vegetables than cooked ones. However, 
this year I am required to provide a starchy vegetable once per week. 
So, in place of fresh vegetables, the students are served peas, corn or 
potatoes, not because they are healthier choices but because starchy 
vegetables are now required once each week.
    The new regulations have simply made it harder for food service 
professionals to meet students' expectations and to do what they know 
is best for their own districts. A USDA study conducted before the new 
standards were implemented indicated that students who chose a school 
lunch consumed more fruits, vegetables, and milk and less sugar than 
those who brought a lunch from home. Students who opt to get lunch at 
the fast food restaurant or convenience store near the school surely 
are not going to get a healthful meal. And, students who opt not to eat 
lunch at all won't get the nutrients they need and are more likely to 
binge on non-healthful snacks when they get home from school. To be 
most effective at ending hunger and curbing childhood obesity, schools 
need to be able to provide healthful lunches that students want to 
purchase and eat.
    To underscore the difficulty that directors are having in meeting 
the new regulations, to date only about 64% of Pennsylvania's schools 
have been certified as meeting the new standards.
    Our programs are reeling from the effects of implementing the new 
standards. Most schools lost participation resulting in fewer students 
receiving well balanced meals and less income for our programs. And we 
incurred higher program costs. School nutrition professionals are a 
resilient group who will do everything possible to provide great meals 
for students. Especially if the meat/grain caps and the lunch price 
equity rules are addressed, I am hopeful that things can improve.
    However, we have significant new challenges coming upon us quickly 
in the form of additional breakfast requirements and competitive food 
regulations that will not provide the time and space needed to regain 
the ground lost this year and threaten to do further and more 
significant harm to our programs.
    Beginning with the 2014-15 school year, school breakfast will be 
required to provide one full cup of fruit with breakfast instead of 
one-half cup. This change will mirror the food waste and cost problems 
that we are currently experiencing with the lunch program. Unlike 
lunch, which typically has a lunch period scheduled within the school 
day, the School Breakfast Program has always struggled to be allotted 
any time at all for students to get and eat the meal. The time 
available is usually the amount of time between when the child arrives 
at school and the start of the instructional day, usually less than ten 
minutes. Whether breakfast occurs in the cafeteria or classroom, many 
students struggle now to eat the entire meal before they are required 
to turn their attention away from the meal and to their class work. 
Students simply will not have the time to eat a larger breakfast and 
the money spent on the additional fruit, at least $.25 for each meal, 
will go into the garbage can.
    Before implementing this breakfast requirement, time is needed to 
study the food waste problems at lunchtime and then to proceed only if 
we find that this problem has subsided.
    The pending competitive foods rule has the potential to deal a most 
devastating blow to school nutrition programs. Competitive foods are so 
named because they compete with school meals for students' dollars. 
However, this ignores some critical facts about competitive foods.
    First, there is a notion that without competitive foods, students 
would opt for the more healthful reimbursable meal. This is not 
necessarily true. Older students, who make the vast majority of 
competitive food purchases, will bring the foods that they want with 
them to school or will opt not to eat at all and binge later. In many, 
many cases, competitive foods are not replacing the meal but instead 
are supplementing the meal. This was especially true this year when 
students perceived the meals as being smaller.
    Second, competitive food profits provide the funds needed to 
operate quality programs. The revenue generated allows us to purchase 
better quality foods for breakfasts and lunches than we could otherwise 
afford. It also provides the funds needed to replace equipment, provide 
staff training, and engage in educational initiatives for students.
    All schools were required in 2006 to implement local school 
wellness policies to include nutrition standards for competitive foods. 
My own district's decision at that time was to eliminate all 
competitive foods at the elementary schools. Nutrition standards were 
established for competitive foods available in the secondary schools 
and middle-school students were limited to purchasing no more than one 
of these competitive foods per day. Soda machines were banned from all 
school campuses. As a result of these changes, my program's competitive 
food sales decreased by $120,000 and my ability to replace equipment 
and provide staff training has since been severely compromised.
    Competitive foods generated just over $700,000 this school year--
21% of my program's total revenue. I estimate that the proposed 
competitive food rules would reduce my program's revenue by at least 
half.
    Further, these revenues have a much more significant impact on my 
program's bottom line than do meal sales. The profit margin on a school 
meal is very slim, and for some menus there is no profit at all. 
However, competitive foods are always priced to ensure that they 
generate at least a 50% profit that can then be used to help cover the 
costs of operating a quality school lunch program.
    The additional burden of this proposed rule impacts schools with 
high subsidized meal eligibility and those with low subsidized meal 
eligibility very differently. It may force schools that receive less 
federal funding to opt out of NSLP altogether. In fact, a session 
entitled On or Off the National School Lunch Program was extremely well 
attended at the Pennsylvania Association of School Business Officials 
conference in March. If schools opt to leave the School Lunch Program, 
there is no assurance at all that students will receive a meal that 
meets the USDA nutrition standards or, in fact, receive a meal at all.
    To balance budgets, schools will have to cut jobs. In my district, 
it may mean eliminating the breakfast program so that we can reduce 
employees' hours and save money on benefits and pensions. And the 
effect will be far reaching, affecting food producers, equipment 
manufacturers and others who support our industry.
    To mitigate the harm that could be done by the competitive foods 
rule, USDA must provide flexibility, simplicity, and minimum standards 
that allow schools and food service directors the room to make site 
based decisions that best fit their districts' needs. Any food that is 
served as part of a reimbursable school meal should be allowed as a 
competitive food without restriction. And, school nutrition programs 
should be recognized as the primary food provider within school 
buildings during the school day.
    To illustrate the magnitude to the restrictions that will be placed 
on competitive foods, please see the attached photograph. Most people 
would deem these items to be reasonable snacks for a high school 
student to purchase but all would be banned from schools based on the 
proposed rule.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    There seems to be a sense that school district general funds should 
pick up the added cost of operating school cafeterias. Yet my district, 
like many, is facing tough fiscal realities of its own. Most school 
general fund budgets simply do not have the resources to subsidize the 
school cafeterias. Tough choices will have to be considered at the 
expense of students and jobs.
    My district and I are committed to providing healthful meals and 
foods that make a positive contribution to our students' well-being. 
However, a program that cannot remain fiscally solvent due to decreased 
participation, decreased opportunities to generate revenue, and 
mandated increases to program costs is not positioned to provide high 
quality, healthful meals to students. As with the advice to secure 
one's own mask first before assisting another, we need to be mindful 
that our school meals programs need to be healthy themselves in order 
to advance the healthfulness of our nation's children.
    Thank you for this opportunity to address the committee with my 
concerns.
                                 ______
                                 
    Chairman Rokita. Thank you, Ms. Schaper.
    Dr. Wootan?

 STATEMENT OF DR. MARGO WOOTAN, DIRECTOR OF NUTRITION POLICY, 
           CENTER FOR SCIENCE IN THE PUBLIC INTEREST

    Dr. Wootan. Good morning.
    We probably all can agree on the importance of our 
children's health. Where there may be some disagreement is on 
what the federal government's role is in protecting children's 
health, and specifically for this hearing, the role in 
determining school meal standards.
    That question was answered long before I was born. Unlike 
other aspects of education, foods that have--school foods have 
long been predominantly a federal program. Since the 1940s, 
dating back to the Truman Administration, Congress and USDA 
have set nutrition standards for school meals.
    While most education funding comes from states and 
localities, they contribute less than 10 percent of the funds 
for school meals nationally. Congress invests more than $13 
billion a year in the school lunch and breakfast program.
    It is a matter of good government and fiscal responsibility 
to ensure that those funds are well-spent, that these nutrition 
programs provide good nutrition for kids.
    In 2004, the Bush Administration and the Republican-led 
Congress passed the Child Nutrition and WIC Reauthorization Act 
of 2004, requiring USDA to update the school meal standards to 
align with the Dietary Guidelines.
    So USDA solicited feedback from industry, food service, 
nutrition experts, commissioned a study for the Institute of 
Medicine, and then based on that input proposed standards and 
gave ample time for parents, schools, companies, Congress, and 
others to comment on them.
    And comment, people did. Over 130,000 people commented; the 
overwhelming majority, over 90 percent, in support of the 
proposed standards. Parents are particularly loud and clear in 
their support. Over 80 percent of parents support the new 
school meal standards.
    As you contemplate whether the new meal standards are 
achievable, I urge you to consider the tens of thousands of 
schools that have already made great progress, including 
schools in all of your states.
    As of the end of April, almost three-quarters of school 
districts participating in the school lunch program have 
applied for the $0.06 reimbursement meaning that they believe 
that they are meeting the new school meal standards.
    Those numbers have been increasing and are expected to 
increase even further when USDA gets its next report from 
states.
    Changes of course take time and not surprisingly some 
schools are experiencing challenges. USDA, the Alliance for a 
Healthier Generation, and many others are providing technical 
assistance, training, model menus and product specifications, 
and other resources to help schools work through these 
challenges.
    And USDA has shown that it is listening to schools' 
concerns. When schools faced challenges with the grain and 
protein limits, USDA responded and gave them the flexibility 
that they asked for, which the agency has made clear that it 
plans to make permanent. In April, USDA also provided 
additional flexibility on paid meal pricing.
    The answers to the challenges faced by some schools is not 
to revert back to serving unhealthy food in schools. Our kids 
need us to persevere and ensure that schools get the support 
they need.
    I hope that one of the outcomes of this hearing will be 
enhanced efforts to help those schools that are struggling and 
to get them the technical assistance that they need and to 
connect them with the many, many schools that are implementing 
the new school meal standards successfully.
    And there is a lot to learn from successful schools around 
the country. I included in my testimony some pictures of some 
of the healthy school meals that are being served around the 
country, and if you have a chance to take a look at them or 
others that we could make available, you will see that there 
are many appealing healthful meals that kids enjoy and that are 
good for them.
    These meals also are providing enough calories for the vast 
majority of young people in schools. For those students who 
want more, many schools are offering additional servings of 
fruits and vegetables at no additional charge.
    And for those students with exceptional calorie needs, such 
as competitive athletes, they can purchase a second lunch. They 
can purchase items out of a la carte. There are also 
afterschool snacks and afterschool supper programs to help them 
meet their caloric needs.
    Importantly, the school meal standards are being achieved 
at the current rates of reimbursement in thousands of schools 
across the country, and USDA is providing additional 
reimbursement and there are several other school financing 
provisions that were put into place over the last couple of 
years.
    USDA's updates to the school meal standards are long 
overdue. Schools around the country are showing that they are 
achievable. We know they are critical to our children's health, 
and importantly, they will maximize the taxpayer investment in 
these important child nutrition programs.
    Thank you.
    [The statement of Dr. Wootan follows:]

   Prepared Statement of Margo G. Wootan, D.Sc., Director, Nutrition 
           Policy, Center for Science in the Public Interest

    Good morning. I'm Margo Wootan, the director of Nutrition Policy at 
the Center for Science in the Public Interest, a nonprofit 
organization, where I've worked on school foods and other nutrition 
issues for over 20 years.
    We probably all agree on the importance of our children's health. 
Unfortunately, a third of children are overweight or obese, and 
unhealthy eating habits and obesity are major contributors to heart 
disease, cancer, diabetes, and other diseases. Obesity adds $190 
billion a year to national health care costs, about half of which are 
paid by taxpayers through Medicare and Medicaid.
    Where there may be some disagreement is on what the federal 
government's role is in protecting children's health, and specifically 
for this hearing, the federal role in determining school meal 
standards.
    That question was answered before I was born. Unlike other aspects 
of education, school foods have long been predominantly a federal 
program. Since the 1940s, dating back to the Truman Administration, 
Congress and USDA have set the nutrition standards for school meals.
    While most education funding comes from states and localities, they 
contribute less than 10% of the funds for school meals. Congress 
invests more than $13 billion a year in the school lunch and breakfast 
programs. It is a matter of good government and fiscal responsibility 
to ensure that those funds are well spent--that these nutrition 
programs provide good nutrition to children.
    In 2004, the Bush Administration and the Republican-led Congress 
passed the Child Nutrition and WIC Reauthorization Act of 2004, 
requiring USDA to update the school meal standards to align them with 
the Dietary Guidelines for Americans. Over the next seven years, USDA 
formed internal working groups, solicited feedback from industry, food 
service, and nutrition experts, and commissioned an Institute of 
Medicine study to develop recommendations to update the meal standards.
    USDA proposed standards based on all that input, and then gave 
ample opportunity for parents, schools, food companies, Congress, and 
others to comment on them. Over 130,000 people commented--the 
overwhelming majority in favor of the proposed standards. Parents were 
particularly loud and clear--over 80% support the new school meal 
standards.
    As you contemplate whether the new school meal standards are 
achievable, I urge you to consider the tens of thousands of schools 
that have already made great progress, including schools I'd be happy 
to put you in touch with in Indiana, Tennessee, Minnesota, California, 
and other states. The Alliance for a Healthier Generation has recruited 
over 14,000 schools; USDA's HealthierUS School Challenge has certified 
over 6,500 schools (see http://www.fns.usda.gov/tn/healthierus/
awardwinners.html for a list), and there are a growing number of 
schools qualifying for the six cents in additional school lunch 
reimbursement, which is available to schools meeting the new standards.
    Change takes time, and not surprisingly, some schools are 
experiencing challenges. USDA, the Alliance, and others are providing 
technical assistance, trainings, model menus and product 
specifications, and other resources to help schools work through 
challenges.
    USDA has shown that it is listening to schools' concerns. When 
schools faced challenges with the grain and protein limits, USDA 
responded and gave them additional flexibility, which the agency has 
said it plans to make permanent. In April, USDA also provided 
additional flexibility on paid-meal pricing.
    The answer to the challenges faced by some schools is not to revert 
back to serving unhealthy food in schools. Our kids need us to 
persevere and ensure that schools get the help and support they need. I 
hope that one outcome from this hearing will be enhanced efforts to 
help struggling schools with additional technical assistance, including 
the opportunity to learn from the many schools that are successfully 
implementing the new school meal standards.
    And there's a lot to learn from successful schools around the 
country. For example, simple things like taste tests, having students 
vote for favorite menu items, giving menu items catchy names, and 
sprucing up cafeterias are some of the ways schools have been 
increasing student acceptance of healthy school meals. The photos in my 
written testimony depict a few of the appealing and healthful meals 
that many schools are serving.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As you can see, these meals provide plenty of food and should meet 
the needs of the vast majority of young people in schools. For those 
students who want more, many schools offer additional servings of 
fruits and vegetables at no additional charge. And for those students 
with exceptional calorie needs, such as competitive athletes, they can 
purchase a second lunch or healthy a la carte options to supplement 
their meal or take advantage of afterschool snack or afterschool supper 
programs.
    Importantly, the school meal standards are being achieved at 
current reimbursement rates by thousands of schools, and USDA is 
providing an additional six cents per lunch to schools that meet the 
new school meal standards.
    USDA's updates to the school meal standards are long overdue, are 
achievable, are critical to our children's health, and will maximize 
the taxpayer investment in these important child nutrition programs. We 
need to give some schools and students a little more time to adjust, 
and ensure that struggling schools get the technical assistance they 
need to join the thousands of schools that are successfully serving 
healthy school meals to students.
    Thank you.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                                 ______
                                 
    Chairman Rokita. Thank you, Doctor.
    Ms. Ford, you are recognized for 5 minutes.

   STATEMENT OF SANDRA FORD, DIRECTOR OF FOOD AND NUTRITION 
            SERVICES, MANATEE COUNTY SCHOOL DISTRICT

    Ms. Ford. Mr. Chairman, members of the committee, I am the 
director of food and nutrition services for Manatee County 
School District in Bradenton, Florida. I am also president of 
the School Nutrition Association, but today I am speaking on 
behalf of Manatee County Schools.
    I want to thank you for the opportunity to appear before 
the subcommittee and share my insights on the challenges 
related to implementing the new nutrition standards, or meal 
pattern, for school meals.
    I know I speak for my colleagues across the country when I 
say that as a school nutrition professional, my first priority 
is to ensure every student has access to well-balanced, healthy 
school meals.
    I join my fellow members of the School Nutrition 
Association in calling for the updated nutrition standards to 
bring the meal pattern in line with the Dietary Guidelines for 
Americans, but as we all know, complex regulations sometimes 
lead to unintended consequences.
    School meal programs operate on extremely tight budgets. We 
receive just $2.86 in federal reimbursement per lunch for food, 
supplies, labor, equipment, electricity, indirect costs, and 
other related costs. Even a slight increase in costs or drop in 
participation can impact our program.
    The new meal pattern requirements have significantly 
increased the expense of preparing school meals far beyond the 
additional $0.06 reimbursement provided under the Healthy, 
Hunger-Free Kids Act.
    USDA estimated that initially the new meal pattern would 
increase the average cost of serving a school lunch by $0.05. 
When all of the requirements are implemented, USDA estimated 
the cost per lunch would be $0.10 higher and the cost per 
breakfast would be $0.27 higher.
    However, in Manatee County, food costs alone have already 
increased by 5 percent. Our food costs went from 37 percent of 
our revenue to 43 percent of our revenue. Not to mention the 
$43,000 we spent on retaining staff to meet the new standards 
last fall. These expenses will only rise as the school 
breakfast standards go into effect.
    The weekly limits on grain and protein served with school 
meals restricted some very healthy school menu options that 
were student favorites. Under the new standards, schools could 
no longer offer daily sandwich choices because serving two 
slices of whole grain bread each day exceeded the weekly grain 
limits.
    Sandwiches were commonly offered in schools as a daily 
alternative to the hot entree, but under the grain and proteins 
maximums, our cafeteria faced the choice of either eliminating 
sandwiches or offering them only 4 days a week.
    On the first day of school last year, one of my elementary 
students broke into tears because he would not be able to get 
his peanut butter and jelly sandwich.
    Menu changes have driven children out of the program. Our 
participation has declined from 71 percent to 68 percent. We 
anticipate at year-end our total revenue will be down about 
$0.5 million.
    USDA has acknowledged problems with the grain and the 
protein maximums and temporarily lifted the maximums once and 
then extended the delay.
    But a temporary reprieve only leaves school cafeterias and 
industry partners in limbo and does nothing to help industry 
develop new products or for school cafeterias to meet the new 
standards.
    Every roll and wrap goes through extensive testing before 
it is served in a school cafeteria. Temporary regulations have 
left industry guessing.
    Congress should pass legislation to permanently lift these 
grain and protein maximums. Calorie limits and whole grain 
requirements under the new standards will protect the 
nutritional integrity of the standards.
    Congress should also address Section 205 of the act, which 
has forced many schools to increase their lunch prices. When 
setting the school meal prices, school boards must take into 
account not only local food and labor costs but also the local 
economic conditions and what families are able and willing to 
pay.
    At the end of the school year, I had to raise lunch prices 
by $0.05 for next year. These mandated price increases have 
contributed to the declining participation.
    Today, USDA will be releasing new nutrition standards for 
competitive foods; those foods sold in a la carte lines, snack 
bars, and vending machines. If we are to eliminate all of the a 
la carte choices currently offered that do not meet the 
proposed competitive food regulations, our school meal program 
would project an annual loss of $975,000.
    Also of concern is the way the proposed rule failed to 
mirror the nutrition standards for school meals. If the 
proposed regulations are unchanged, schools will have to 
evaluate food choices based on two completely different sets of 
standards.
    In my 27 years of working in school cafeterias, I have 
witnessed how school lunch brings students from every walk of 
life together. The National School Lunch Program was designed 
to serve all children, not just poor children, and that is one 
of the program's greatest strengths.
    These new regulations, though well-intended, are 
threatening this critical mission by gradually driving paying 
students out of the program.
    I hope the members of this committee will support 
legislation to remedy several of the challenges posed by the 
new meal pattern and will continue to seek the input of school 
nutrition professionals as Congress considers changes to the 
school meal programs.
    Mr. Chairman, members of the committee, thank you again for 
this opportunity, and I will be happy to answer any questions 
you have.
    [The statement of Ms. Ford follows:]

    Prepared Statement of Sandra E. Ford, SNS, Director of Food and 
   Nutrition Services, Manatee County School District, Bradenton, FL

    Mr. Chairman, Members of the Committee, I am Sandra Ford, SNS, 
Director of Food and Nutrition Services for Manatee County School 
District in Bradenton, Florida. I am also President of the School 
Nutrition Association, but today I will be speaking on behalf of 
Manatee County School District.
    I want to thank you for this opportunity to appear before the 
Subcommittee today and share my insights on the challenges related to 
implementing the new nutrition standards, or meal pattern, for school 
meals.
    I know I speak for my colleagues across the country when I say that 
as a school nutrition professional, my first priority is to ensure 
every student has access to well-balanced, healthy school meals. School 
nutrition professionals are constantly working to improve the quality 
of the meals we serve and to teach children to make a lifetime of 
healthy choices. In fact, I am proud to report we have children in 
Manatee County who tried their very first peach or were first 
introduced to kale in our school cafeterias.
    I joined my fellow members of the School Nutrition Association in 
calling for updated nutrition standards to bring the meal pattern in 
line with the Dietary Guidelines for Americans. We support offering a 
wide variety of fruits, vegetables and whole grains for students and 
ensuring school meals meet reasonable limits on sodium, unhealthy fat 
and calories.
    But as we all know, complex regulations sometimes lead to 
unintended consequences.
    School meal programs operate on extremely tight budgets. We receive 
just $2.86 in federal reimbursement to prepare a lunch that includes 
fruits, vegetables, whole grains, milk and a protein, not to mention 
covering supply, labor, equipment, electricity and indirect and other 
costs. Even a slight increase in costs or drop in the number of 
students participating in our program can mean the difference between a 
year-end profit or deficit.
    The new meal pattern requirements have significantly increased the 
expense of preparing school meals, at a time when food costs were 
already on the rise. New meal pattern costs have far exceeded the 
additional 6 cent reimbursement provided under the Healthy, Hunger-Free 
Kids Act.
    USDA estimated that initially, new meal pattern requirements would 
increase the average cost of producing and serving a school lunch by 5 
cents. By Fiscal Year 2015, when all of the requirements are 
implemented, USDA estimated the cost per lunch would be 10 cents higher 
and the cost per breakfast would be 27 cents higher.
    However, in Manatee County School District, food costs alone have 
already increased by 5%, which is more than FNS projected. Our food 
costs went from 37% of our revenue to 43% of our revenue. These 
expenses will only rise as the school breakfast standards go into 
effect, requiring cafeterias to double the amount of fruit or 
vegetables offered. And given our experience with lunch, we expect the 
breakfast increase will surpass USDA's projections.
    Retraining our staff members significantly added to the expense of 
meeting the new standards. Our training programs cost over $43,000 last 
year. We had to teach our cooks and servers to follow new recipes and 
portion sizes and retrain them on what students must have on their tray 
for a reimbursable meal. A similar training program is required as the 
new breakfast standards go into effect.
    At the same time, certain requirements under the new regulations 
have contributed to declining participation in the meal program, 
resulting in decreased revenue.
    For instance, the weekly limits on grains and proteins served with 
school meals restricted some very healthy school menu items that 
happened to be student favorites. Under the new standards, schools 
could no longer offer daily sandwich choices because serving two slices 
of whole grain bread each day exceeds weekly grain limits. Meanwhile, 
salads topped with grilled chicken and low fat cheese exceeded weekly 
protein limits.
    These menu choices were commonly offered in schools as a daily 
alternative to the nutritious hot entree choice of the day. Students 
always felt comfortable knowing that if they didn't like the hot 
entree, they could choose from a deli sandwich, a peanut butter and 
jelly or chef salad.
    Under the grain and protein maximums, our cafeterias faced the 
choice of either eliminating these daily alternatives or offering them 
only four days a week, leaving students confused and upset on Fridays. 
On the first day of school, one of my elementary school students burst 
into tears in the cafeteria because he couldn't get his peanut butter 
and jelly sandwich.
    Meanwhile, we haven't been able to find whole grain sandwich wraps 
that meet the weekly grain limits, so we've had to cut our wraps in 
half. How would you feel if suddenly your favorite sandwich was served 
on just half a wrap?
    These menu changes have driven children out of our program. Even in 
Manatee County, where 60% of students receive free or reduced price 
meals, our lunch participation has declined from 71% to 68%. We 
anticipate at year-end our total revenue will be down about $500,000. 
If not for the additional 6 cent reimbursement, which we have been 
receiving since November, our revenue would be down even more. 
Nationally, USDA reports a 3.2% decrease in average daily participation 
this year.
    USDA has acknowledged problems with the grain and protein 
maximums--they temporarily lifted the maximums once, then extended the 
delay through the 2013-2014 School Year. But a temporary reprieve only 
leaves school cafeterias in limbo. We brought back our daily sandwich 
choices to the menu to maintain participation, but how will students 
respond if we are forced to take away their sandwiches again next year?
    A temporary reprieve does nothing to help industry partners develop 
new products for school cafeterias to meet the new standards. Every 
roll and wrap goes through extensive testing before it is served in a 
school cafeteria. Our industry partners do months of R&D to identify 
recipes that meet the whole grain standards and food safety 
requirements, but still have the look and taste our students expect.
    Temporary regulations leave our industry partners guessing. Do they 
phase out their old product line and invest in developing products to 
meet new standards? Or will USDA issue another reprieve so that schools 
will be clamoring for their old product line?
    Congress should pass legislation to permanently lift these grain 
and protein maximums. Calorie limits and whole grain requirements under 
the new standards will protect the nutritional integrity of the 
standards, but eliminating weekly maximums on grains and proteins will 
give school cafeterias the flexibility they need to plan healthy menus 
that still appeal to students.
    Congress should also address Section 205 of the Healthy, Hunger 
Free Kids Act. Also called the paid meal equity provision, Section 205 
has forced many schools to increase their lunch prices, regardless of 
the cost of preparing the meals. These mandated price increases have 
contributed to declining participation in Manatee County and in 
districts across the country.
    School meal prices, just like restaurant prices, differ greatly 
from one community to the next, and they should. When setting school 
meal prices, school boards must take into account not only local food 
and labor costs, but also the local economic conditions and what 
families are able and willing to pay.
    At the end of last school year, my program was fortunate enough to 
have a surplus, but paid meal equity requirements mandated that I raise 
my lunch prices this year by $.05 cents. Manatee County School District 
has not provided a salary increase for employees in five years. 
Families in our community are struggling and cannot afford this lunch 
price increase.
    Congress can strike a reasonable balance by amending Section 205 to 
ensure that well-managed school meal programs that are financially 
solvent will be allowed to set their own meal prices.
    As I assess the current state of Manatee County's school meal 
program, I have to consider what is on the horizon. I have mentioned 
the upcoming school breakfast requirements which present additional 
challenges. We also anticipate the release of USDA's new nutrition 
standards for competitive foods--those items sold in a la carte lines, 
snack bars and vending machines.
    Today, if I were to eliminate all of the a la carte choices 
currently offered in Manatee County Schools that do not meet the 
proposed competitive food regulations, our school meal program would 
project an annual loss of $975,000. Also of concern is the way the 
proposed rules fail to mirror the nutrition standards for school meals. 
If the proposed regulations are unchanged, schools will have to 
evaluate food choices based on two completely different set of 
standards.
    As Congress and USDA evaluate changes to the National School Lunch 
Program, I hope they will remember that school lunch is so much more 
than just a meal. In my 27 years working in school cafeterias, I have 
witnessed how school lunch brings students from every walk of life 
together. I've seen how school meals are teaching students about 
healthy choices.
    The National School Lunch Program was designed to serve all 
children, not just poor children, and that is one of the program's 
greatest strengths. These new regulations, although well intended, are 
threatening this critical mission by gradually driving paying students 
out of the program.
    I hope the members of this committee will support legislation to 
remedy several of the challenges posed by the new meal pattern, and 
will continue to seek the input of school nutrition professionals as 
Congress considers changes to school meal programs.
    Mr. Chairman, Members of the Committee, thank you again for this 
opportunity to testify. I would be pleased to answer any questions you 
may have.
                                 ______
                                 
    Chairman Rokita. Thank you, Ms. Ford.
    It is now time to hear from members of the subcommittee, 
and out of respect for those members' schedules, I am going to 
defer my questioning to the end; a favor I hope will be 
returned by the full committee chair.
    With that, I recognize Chairman Kline for 5 minutes.
    Mr. Kline. We can't have these bargaining arrangements on 
the record there, Mr. Chairman. [Laughter.]
    Thank you--although off the record, I am open. Thanks for 
holding the hearing.
    Thanks very much the witnesses for being here. This is an 
issue that has gained a lot of public attention. We are all 
hearing about some of these problems that Ms. Ford outlined so 
well from schools in our districts, and so I really appreciate 
having experts here in the room to give us their input.
    And I want to thank Ms. Brown and the work that the GAO has 
done. As you know, we rely so heavily on the work that the GAO 
does in a wide range of fields and I appreciate very much the--
what you and your team have done in looking into this issue, 
and we look forward to your final report until we come up with 
a request for another report, which as you know, in your 
business happens quite a lot because we really do appreciate 
your input, and so as we struggle with these issues, we so 
often turn to the GAO as we did in this case.
    So you went to a lot of schools and in your testimony you 
talked about differences, things seem to be working fairly well 
in some schools and not in another schools, but what would you 
say was the top most or the topmost concerns as you went--was 
it cost?
    We heard some of that from Ms. Ford for example, the 
student opinions of the food, the waste, federal and state 
compliance, common--what sort of rose to the top?
    Ms. Brown. Well, first let me say thank you for the kind 
words on GAO, and I actually from hearing these comments have a 
few ideas of some new work we could do based on that.
    Mr. Kline. We will talk.
    Ms. Brown. But the--I think the thing that we heard most 
frequently and was most loudly voiced was the concern about the 
limits on the meats and grains, and beyond that, we heard from 
all of the districts we were in a consistent concern about 
participation, about the costs of the fruits and vegetables, 
and about student acceptance.
    The concerns that we raised about waste and hunger some 
districts seem to be managing or handling better than others 
but again, that is why we made the recommendation on the 
lifting the limits permanently on the meats and grains because 
that was the thing that we heard the most loudly.
    Mr. Kline. Thank you, and did the opinions differ? It 
sounded like in your testimony they did because of geographic 
location or size of the district. Was there some pattern there 
that you could easily identify; student population and that 
kind of thing?
    Ms. Brown. I think the interesting thing about our site 
visits was how universal some of these concerns were. The site 
visits that we made were to school districts in urban areas, in 
rural areas, in some that prepared their foods in their own 
kitchens, some that had central kitchens; just lots of 
varieties. Some that had more free and reduced price, or fewer, 
and across the board, the concerns that I mentioned earlier 
were common among all of them.
    Mr. Kline. Very, very interesting.
    Thank you very much, Mr. Chairman. I am going to set the 
standard here and yield back.
    Chairman Rokita. I thank the chair.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here.
    Dr. Wootan, if I could go back for a second to why we are 
here, why we are talking about this and what we hope for our 
young people today to be healthier and to not have problems 
with obesity or other physical problems down the line, what--we 
are not actually able to--I think, you might challenge this and 
others--to really calculate that into the cost that schools are 
seeing down the line, but how would you suggest that we do 
that?
    Should we be doing that? And how can we make that point a 
little better because obviously we need to be able to monitor 
young people on whether or not the changes that have occurred 
are making a difference.
    Dr. Wootan. That is an excellent question and a very 
important point that kids are eating about one-third to one-
half of their calories at school during the school day, so it 
is a very big part of their diet.
    And we know that, you know, unhealthy eating habits are one 
of the biggest contributors to heart disease, cancer, diabetes. 
Obesity alone costs upwards of $190 billion a year. So the 
costs are quite significant.
    So an investment of an additional $0.14 to ensure that the 
school meals are healthy seems quite modest compared to the 
hundreds of billions of dollars that we are spending on heart 
disease, cancer, diabetes. Even with obesity, that $190 billion 
cost, about half of that is paid through Medicare and Medicaid.
    So we are going to pay for this one way or another. We can 
invest on the front-end and help support and protect our 
children's health or we can pay on the back end for the 
diabetes, heart disease, and other diseases that unhealthy 
eating habits will cause.
    Mrs. Davis. Yes, one of these figures actually suggests 
that $14 billion are paid out in direct health expenses and 
about $3 billion of that is for children under Medicaid--
Medicare--I am sorry, Medicaid.
    How do we though, with that information, and maybe others 
want to respond to that--how do we build that into our calculus 
when we are trying to understand better the cost because I can 
understand that having been on a school board and watching 
food-service struggle often with these issues.
    And I also heard, Ms. Ford, that when it came time to try 
to bring in more calories the easy answer in that was to 
provide additional cookies as opposed to fruit and vegetables 
or fruit particularly, which was more expensive for the school 
to deal with. How can we put that better into the calculus 
then? Is it looking at best practices of school districts?
    Ms. Ford. I think your points are well taken, but--and 
having been a member of the school board, you certainly know 
that school food service programs are viewed as a business and 
we do have to balance our participation because it is extremely 
important for the students to participate in the program along 
with the regulations and the requirements of that program.
    Dr. Wootan. And one thing just to add, we looked--there are 
schools in all of your districts that are already meeting 
theses standards and are participating in the healthier U.S. 
schools challenge and that are able to serve healthy meals that 
kids like at the current reimbursement rate. So we know that it 
can be done.
    For those schools that are struggling, we really need to 
get them the support, the technical assistance, the tips, 
connect them with schools that are doing this successfully so 
that they can also be more successful in implementing the 
standards.
    Mrs. Davis. Ms. Brown, when you were looking at a number of 
schools, did you feel that they could look at best practices in 
other places? Because one of the things I think you mentioned 
is that, you know, this will take time, and we know that.
    Ms. Brown. I think there is definitely some promise in 
trying to develop and gather best practices. We have made those 
types of recommendations to USDA in the past on a number of 
areas including nutrition education.
    And while the school food directors that we talked to had 
lots of experience and some of them were nutritionists 
themselves, if there are any tips that some of the schools that 
are struggling with similar things could share, I am sure that 
they would appreciate that. They may not all be applicable to 
every district, but it could be useful.
    Mrs. Davis. Great. Thank you very much.
    Thank you, Mr. Chair.
    Chairman Rokita. Thank the gentlelady.
    Dr. Roe? Chairman Roe is recognized for 5 minutes.
    Mr. Roe. I thank the chairman for holding this, and in full 
disclosure, I had a banana, a peach, a few grapes, and a small 
can of V-8 juice this morning for breakfast. Just to let you 
know that I am trying to be as healthy as I can.
    Dr. Wootan. Sounds great.
    Mr. Roe. I am hungry right now, I might also add. 
[Laughter.]
    I--first of all, I want to share with you some experiences 
and obviously everyone wants our children to eat healthier, and 
to be more physically active. There is no question that that is 
beneficial. It has been shown over and over again.
    In Johnson City Tennessee, where I am from, about 8 or 10 
years ago we started a program called ``Up and At 'Em'' and it 
was to start at the kindergarten level and we probably broke 
every HIPAA law in the world but we weighed every child in the 
school, in the elementary school system we had. We found that 
39 percent were at risk or overweight.
    And that only 1 percent were underweight. I was one of 
those kids that was always probably underweight growing up, but 
we found that out and we started this program and it was to 
teach children how to eat better long before this ever came up. 
And one of the things I would--and we are keeping up with those 
kids as they go through the school system.
    So we will--that data you are talking about, we probably 
will have because most--we don't--we are not very mobile and 
most of the kids that start in first grade are going to end up 
at the same high school. We only have one high school in the 
city. So we really have a captive audience that we can do that 
with.
    One of the things I heard from them our local school folks 
were our athletes and so forth--and I would have been one of 
those and you look at--and I think, Dr. Wootan, you mentioned 
that one-third to one-half of the children get their calories 
at school.
    Probably the underserved kids maybe get a majority of their 
calories at school and that is a real issue, and if you are an 
athlete, you know, if you are active and you play football, 
basketball, run track, whatever, you can't survive on this.
    And we had teachers buying because the kids had to purchase 
the extra food, we had teachers actually doing that. I think 
that has got to be addressed and it can't be a one-size 
prescriptive, everything fits everybody, and I appreciate the 
USDA in allowing some latitude here and kudos to Ms. Brown 
also. That was a very good presentation.
    If you all--this is a great panel because you actually are 
out there doing it, and Ms. Ford, what would you do and one of 
the things that bothered me a little bit was the fact that we 
sold a lot of the vending food things and that the school got 
hooked on this end.
    In other words, they needed the money to run the program. 
How do you do that? How do you make that work? These extra 
requirements that we are making you do with--you have got to 
balance the budget--and you mentioned your deficit went from 
$500,000 to almost $1 million once you took that out. How do 
you do that?
    Ms. Ford. Well, as I have stated before, and I think one of 
the biggest challenges we currently face is we do have to 
operate our programs as a business. We are accountable to not a 
profit-making business, but a break-even business where we are 
covering all of the related expenses.
    I think as my school board asked me that same question when 
I presented this to them and really it will require us to take 
a look at our business model and we will have to step back and 
take a look at all aspects of our program. It more than likely 
will mean a reduction of force. Because our numbers, our labor 
numbers are really based on that revenue number at that site.
    And if I lose that revenue, I am going to have to take a 
look at reduction of force.
    Mr. Roe. That or your local community has to raise taxes.
    Ms. Ford. Absolutely.
    Mr. Roe. The revenue--the money has to come from somewhere.
    Dr. Wootan. But the majority of schools are finding that 
revenue stays the same or actually increases when they switch 
to healthier options and a la carte and vending. And so those 
changes that USDA announced today should not have a negative 
financial impact on the majority of the schools.
    Ms. Schaper, my time's about out, but would you talk a 
little bit about price equity?
    Ms. Schaper. Actually, I would like to--I would really like 
to respond to this if I could.
    Mr. Roe. Okay.
    Ms. Schaper. In 2006 we were all required to do local 
wellness policies. So in 2006, I sat down with members of my 
community, members of my school districts, the students, and we 
wrote local wellness policies and we made big reductions in the 
a la carte competitive foods in our district.
    In my district, that meant $120,000 loss in revenue. At my 
middle schools, we did have a small increase in lunch 
participation. In my high schools, I had no increase in lunch 
participation.
    Students who wanted to pick just a bagel and a bottle of 
water for lunch and now that was limited because of a la carte 
standards, did not switch over to buy a full lunch instead. So 
we did not see that income come back.
    And the reality--and this is sad, and I don't like saying 
this, but I can make more money and I do need that money to buy 
equipment, to train staff, to provide better foods for the 
school lunch program.
    I can make more money in competitive food sales. There is a 
profit margin on those items. There is not a profit margin on a 
school lunch. I have a certain amount of money and that gets 
spent providing the lunch.
    Mr. Roe. Mr. Chairman, thank you and I also was in tears 
with the kid who couldn't eat his peanut butter sandwich, too. 
I yield back. [Laughter.]
    Chairman Rokita. The gentleman's time has expired.
    Mr. Polis is recognized for 5 minutes.
    Mr. Polis. Thank you, Mr. Chair.
    I want to begin by acknowledging some very special 
observers from my district that we have with us today. Three 
heroes from the front-line of education, educators for my 
district. Sheila Pattorff from Ferguson Alternative High School 
in Loveland; Kim Pearson and Martin Pearson. Kim from the 
International School of--Middle School of Thornton, and Martin 
from Stuart Middle School in Brighton, 27J.
    So thank you for joining us today. They are here of course 
as educators and as middle school educators, I think 
particularly at the middle school levels they see the impact of 
learning, whether kids are hungry or coming off of a caffeine 
and sugar high or whether they are well fed. I think many of 
those differences are particularly accentuated at the middle 
school level at which they work every day.
    Ensuring school meals are healthy is absolutely critical 
for kids' health as well as for academics. Research shows that 
students who don't have reliable healthy meals lag behind their 
peers and simply it is harder to learn.
    That is why Congress passed the Healthy, Hunger-Free Kids 
Act of 2010, provided better funding and healthier standards 
for school lunches. It was a step in the right direction to 
ensure that students across the nation have access to healthy 
food and drinks.
    I am also very pleased to see the USDA this morning issued 
a rule on competitive foods, an issue that I long worked on in 
prior capacities in the State Board of Education in Colorado 
and through our state legislature, which requires more robust 
and comprehensive standards for snacks and beverages that 
students can purchase outside of the school meal program; 
vending machines at schools, et cetera. Unfortunately, the 
previous Congress short-circuited these efforts when it blocked 
the USDA proposed rules to put the new standards into effect.
    One example is when Congress itself tried to reclassify 
pizza as a vegetable. Unfortunately, we--there was some 
testimony about interference. I think one of the worst, most to 
blame is Congress itself.
    In fact, in trying to say that somehow pizza--not vegetable 
pizza--we are talking about pizza with no vegetables simply 
because of the quarter tablespoon of tomato sauce, so cheese 
pizza, pepperoni pizza, Congress itself against the USDA and 
against science said is a vegetable.
    That is why this morning I introduced, reintroduced the 
SLICE Act along with Congresswoman DeLauro, Congressman 
McGovern, and Congressman Rangel, simply takes away Congress' 
ability to decide what food group pizza is in and returns that 
to the USDA.
    Pizza is fine. We all probably eat it and it has its place 
in school meals, but it is not broccoli, it is not a carrot, it 
is not celery. You know, again, I think these recent reforms 
were a step in the right direction.
    I was a little bit troubled by some of the items that Ms. 
Schaper mentioned. A couple things--I wanted to make sure I got 
this right. Did you say that 60 percent of the districts in 
Pennsylvania were not meeting the new standards? Was that the 
amount that were not certified?
    Ms. Schaper. Sixty-four percent are certified.
    Mr. Polis. Are certified. So 36 are not.
    So in Colorado, 100 percent of the districts participate in 
the National School Lunch Program are certified for the $0.06 
reimbursement, so again, this is--shows that there needs to be 
a better implementation in Pennsylvania is what it demonstrates 
to me.
    We had no problem. I mean, our state is fairly similar 
size. We have rural districts. We have urban districts, we have 
suburban districts. We have 100 percent certification.
    I also saw--and the reason I am asking you this because it 
wasn't--I didn't see it in your written testimony, but I wrote 
down--you said it is logistically very difficult to provide 
choices.
    I am sure it is more logistically difficult to provide 
choices, but that is the whole point of these kinds of 
regulations, to ensure that those who are in the field and 
working don't take the easiest path for themselves, they 
instead take the best path for kids.
    And when decisions are made like the one that apparently, 
according to your testimony, you made in Pennsylvania, that you 
provided desserts to meet the calorie minimums, when you could 
have offered fruits or vegetables, you are almost begging for 
more Congressional regulation because of course that is not the 
right decision for the health of the students to make.
    When you have the USDA grain limits, instead of adding 
desserts to meet the calorie minimums, you should add fruits or 
vegetables to meet the calorie limits, which is permitted under 
the law.
    In the brief time that I have remaining, for Ms. Wootan, I 
would like to ask her what are schools and food services 
directors doing to ensure that not only they are serving 
healthy foods that the kids like and eat the healthy foods that 
are being served?
    Dr. Wootan. A lot of schools are having very good luck 
doing taste tests with the kids to find out what they like, 
have them vote for their favorite menu items or recipes, have 
cooking contests among students to really engage the kids in 
finding out what they like, what they will eat.
    You know, healthy food tastes just as good as unhealthy 
food if it is and made well and it is presented nicely. You 
just have to figure out--it takes a little time to figure out 
which healthy options the kids will like best.
    Mr. Polis. I would like to highlight the successes of 
Boulder Valley School District under our director of food 
services, Anne Cooper, who added cooking and salad bars in 
schools across Boulder Valley School Districts. It is very 
successful evidence that students are actually eating the 
healthier foods.
    I yield back.
    Chairman Rokita. I thank the gentleman. The gentleman's 
time has expired.
    Mrs. Brooks is recognized for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And good morning, everyone. Thank you for being here.
    As someone who has been a working mom my entire life, when 
my kids were growing up, I counted on those school lunches. I 
was not one of those moms that packed lunches. I counted on the 
schools to provide those healthy and good lunches and lunches 
that would fill my kids up so then they could go to after 
school activities and so forth.
    And what I am concerned about is that while I appreciate 
the Healthy, Hunger-Free Kids Act of 2010, I am afraid that we 
do have too many hungry children still and that is in large 
part--I was very surprised quite frankly when I received an 
email from a constituent, a 12-year-old boy in Fishers, Indiana 
who actually is buying his lunch at about $5 a day, but he is 
6-feet tall, he is 120 pounds, and he is not getting enough 
choice, and he is not getting enough food for that $5 a day.
    And I think time and time again, we are hearing that kids 
are going hungry and so to the food directors, in particular, 
who have this issue and we have issues of kids in different 
sizes and their age groups, and so Ms. Schaper and Ms. Ford, 
would you please talk about how are your--what are the 
solutions to this growing problem under this rule?
    We cannot have hungry kids. If we have hungry kids, they 
cannot learn, they will not do well in afterschool activities, 
and one thing I haven't heard anything about as well is there 
were a number of limitations put on beverages as well and a lot 
of kids count on those beverages to, you know, help them with 
energy afterschool.
    Could you talk about hunger a bit more? And for these kids 
who don't fit in the model of what they are being given on 
these--in sometimes very lean lunches for kids of different 
sizes?
    Ms. Schaper. Right. The reality is that the calorie limits 
are based on what the children actually take. It is not based 
on what we offer. It is based on what they take. So we can 
offer lots and lots of fruits and vegetables, but if the kids 
don't actually choose to take it, when we do the analysis of 
our menus, we don't get to count those calories.
    That is why schools were reduced to having to put more 
popular with kids items on the menu that would increase those 
calories.
    It is not what any of us want to do, but we do want kids to 
come to the lunch line, have a lunch, feel filled up, feel like 
they had enough to eat, and then be able to participate in 
their classroom activities for the rest of the day, their 
afterschool activities at the end of the day, to have the 
calorie needs that they need.
    As I contemplate the testimony I hear this morning, it 
sounds like school lunches were horrible prior to this year and 
they were not. My lunches were very, very healthy before. They 
are very, very healthy now. It is just costing me a lot more 
money to do it this year. Thank you.
    Mrs. Brooks. Ms. Ford?
    Ms. Ford. And I agree with what Megan said. And I think one 
of the biggest challenges was the upper limits, when the upper 
limits were placed on I couldn't give the high school students 
a 3-ounce bun anymore. I had to give them the 2-ounce bun.
    So I think a lot of what we were hearing in the media as 
hungry children really was dealing with the fact that the upper 
limits were creating some downsizing of portions.
    We could offer a sandwich on a 3-ounce bun or the same 
sandwich on a 2-ounce bun and the students were able to pick 
based on their size. When some of that restriction was taken 
away, when the upper limits were in place, I think that was 
where we were hearing about hungry kids.
    The other thing is we really do add whole-grain items or 
wanted to add the bread or the protein item as--in addition to 
being able to add the fruits and vegetables. We didn't add 
cookies, but we were still restricted in what we could add to 
increase that calorie count.
    Mrs. Brooks. And aren't there a number of--and I think that 
might have been pictures of a number of snack items that are no 
longer allowed. I don't recall which of you provided that, and 
can you just review in case people didn't have the opportunity 
to take a look, the type of items that, you know, most of us 
have thought are pretty healthy food items that are now no 
longer allowed because you just reminded me of the calories----
    Ms. Schaper. They are snacks. They truly are snacks, but in 
my school district, we provide a very, very good lunch, and 
most of my kids choose to buy a lunch, but a lot of them are 
involved in afterschool activities, a lot of them are athletes. 
They like to buy something else that will go with the meal.
    Things like Rold Gold Pretzels, Pepperidge Farms Goldfish 
Crackers, Whole Wheat Peanut Butter Crackers are all items that 
will be discontinued under these competitive food regulations.
    Mrs. Brooks. With my remaining little bit of time, any 
comments on drinks and the restrictions on drinks?
    Ms. Schaper. You know, I really haven't had time to review 
the regulation because as it came out yesterday, so I don't 
know that I am very comfortable on doing that yet.
    Mrs. Brooks. Oh, okay.
    Dr. Wootan. They are very similar to what the industry has 
already agreed to voluntarily. It will be milk, juice, low-fat 
milk in elementary schools plus some lower calorie beverages in 
high school. So it is quite similar to what a lot of schools 
have already agreed to do.
    Mrs. Brooks. Thank you. My time is up.
    Thank you.
    Chairman Rokita. Thank the gentlelady.
    Ms. Wilson is recognized for 5 minutes.
    Ms. Wilson. Thank you, Mr. Chair.
    Underlying this discussion is the notion that healthy foods 
cost more. I am a lifelong educator and a school principal and 
when I was serving as principal, we had a salad bar that the 
children had access to and it only had vegetables and fruit and 
different condiments that went with salads and it cost the same 
as the food--the regular meal. It also had bits of chicken, 
turkey meat to put with the salads. Is that a choice now for 
the children?
    Dr. Wootan. Yes, many schools have salad bars and they are 
a very popular way to get kids to eat fruits and vegetables.
    Ms. Wilson. And I think that the reason I brought it up 
because it was during the same time that salad bars were 
offered in restaurants. And so it was almost similar to them 
like eating out and so all of these schools that are having to 
adjust their budgets according to the diets, is that 
something--is it a way that they can understand and know what 
other schools are doing that are successful with the new 
guidelines? Is there any way for you to make sure that all 
schools know that that is a choice?
    Ms. Ford. I think that one of the things the School 
Nutrition Association is doing is really trying to be that 
person that you are talking about to share the best practice 
stories and to share the success stories around the country.
    So yes, there is avenues for that to happen, but currently, 
states as you heard from Colorado, states are approaching this 
a little differently. So Florida is a very aggressive state in 
terms of providing training and materials while other states 
may not be.
    Dr. Wootan. And USDA does have a lot of training materials 
and training modules that can be done online or can be done in 
person. I think the challenge is to make sure that those 
schools that are struggling the most, that need the technical 
assistance, get it.
    Ms. Wilson. Okay. Just a follow up. A primary focus of 
congressional school nutrition policy is to ensure that low 
income students have access to healthy foods because in many 
instances, that breakfast at school and that lunch at school is 
probably in some instances, many instances the only meals that 
those children will receive.
    Have your interim findings about the standard's effects on 
student meal participation in the schools distinguished between 
students' family income level? This is for Ms. Brown.
    Ms. Brown. What we have seen over the last many years but 
more recently as well is an increase in the proportion of low 
and free and reduced priced students receiving--purchasing the 
lunches.
    So I think there are indications that those kids are 
continuing to receive the nutrients in the lunches that are 
intended.
    Does that answer your question?
    Ms. Wilson. Mm-hmm. That answered it.
    One of the concerns I had was children who qualify for free 
lunch sometimes out of just fear, shame, and embarrassment do 
not eat because there is a way to determine in the cafeteria 
who is free, who is reduced, and who is paying, and my question 
has to do with how do you recommend to school cafeterias to 
make sure that every child has the ability to eat this 
nutritious food that we are now proposing for them?
    Ms. Brown. You know, I have seen some real evolution in the 
thinking on that over the years. That was a very, very 
significant concern when I started doing this work about 10 
years ago, but in the last round that when we went through the 
different--when we visited the number of different school 
districts, we saw a lot of cases where it would be completely 
invisible for the students who had a free lunch and who was 
paying.
    Students had pin numbers that they put into pin pads at the 
end of the line and things like that that would not highlight 
who was a low income student.
    I think there is still a concern in the breakfast area just 
because not enough kids eat breakfast to kind of mask over the 
fact that many of the kids who come in to eat the breakfasts 
are low income.
    Chairman Rokita. The gentlewoman's time has expired.
    Ms. Wilson. Thank you.
    Chairman Rokita. I thank the gentlelady.
    I am going to recognize myself now for 5 minutes and 
continuing on with you, Ms. Brown.
    I appreciate again, everyone being here.
    But, Ms. Brown, in your conversations with industry 
representatives, you talk about the difficulty in forecasting 
demand which impacts production, inventory, storage, and so on, 
and how this may get worse with the changes to the school 
breakfast program.
    So what will happen? I want you to be specific again for 
the record. What will happen to food production if the current 
and new regulations are not modified?
    Ms. Brown. I think one of the biggest things that the 
industry needs is certainty and just to give you an example, we 
saw in one school district--they had a popular lunch that used 
a tortilla that was a 12-inch tortilla and when the meat and 
grain limitations came in it went to 9-inches and then when 
USDA lifted the waiver, they went to 10-inches.
    So if you are an industry representatives and you are 
trying to develop products that have enough whole grains and 
that will appeal to the kids at the same time that you are 
having to change some of your equipment and your workers and 
revise your packaging and your inventory and your distribution 
system, that is another one of the key reasons why we think 
that lifting the--making permanent the decision on that would 
be helpful because everything we have heard here is that 
students' acceptance is a really, really important issue and 
the industry officials told us if that they didn't have--that 
they were really weren't able to focus on improving the 
products that they had, particularly I think the whole grains 
are a really good example to make them more palatable to the 
kids are so that they will be inclined to eat them.
    Chairman Rokita. I thank you.
    Now to Ms. Ford and Ms. Schaper, I want to follow up on a 
question asked by Chairman Kline and others as well on the 
compounding effect of these rules.
    Quickly, in your opinion, what are the potential long-term 
impacts to your school meal programs, starting with Ms. 
Schaper?
    Ms. Schaper. As I indicated in my testimony, I really do 
fear for the future of my program. It is beginning to cost 
quite a bit more to run the program. We see participation 
coming down.
    I am going to have to go back tomorrow and look at the 
impact of the competitive food regulations now that they have 
been released and I am going to have to make large, large cuts 
to labor in order to keep my program at least break even. I am 
concerned for having to cut breakfast programs and laying off 
employees. It is going to be a difficult future.
    Chairman Rokita. Okay, thank you.
    Ms. Ford?
    Ms. Ford. I think part of the challenge is not having an 
opportunity to react to one before the other one rolls out so 
we have just kind of been on this little chase here.
    Florida has mandated breakfast programs in schools over 80 
percent free and reduced. So that is not a place I can look. So 
I think we just have to continue to look at efficiency of 
operation, and my biggest concern is the fact that they are 
just rolling one after the other. So now with breakfast coming 
in I am not necessarily going to be able to separate what was 
the cost of the new lunch regulations from what is the cost of 
the new breakfast regulations.
    Chairman Rokita. Well, thank you.
    And I am going to yield my remaining 2 minutes to my friend 
from Indiana, Mrs. Brooks, who has some more questions.
    Mrs. Brooks. Thank you, Mr. Chairman.
    This follows up a little bit on the running of your 
programs which I understand are so tight or you are now I think 
as Ms. Ford indicated, it is operating a business. This part of 
school operation is like operating a business.
    So one of my school districts, Elwood, has 75 percent free 
and reduced lunch. The kids that pay for their lunch, they have 
seen a diminishing number of kids pay for the lunch because the 
choices have been removed.
    With increased cost across your programs, how do you 
prepare for things like the freezer goes out? The ovens break 
down? Where is that built into your business model to those of 
you who are running programs?
    Ms. Ford. Well, I will jump in there and say that is part 
of in a way competitive food and a la carte dollars. We look at 
the budget as a whole. So when I build my budget as a whole, I 
build a budget that includes equipment repair and maintenance 
and equipment replacement.
    I honestly this year we have had to call off a couple 
serving line renovations because we just didn't have the extra 
funds that were going to be able to do that.
    So I think it is part of that whole business package. All 
of it rolled in together. We do budget for those things, but if 
we have a particularly bad year with equipment replacement or 
repair, then somewhere along the line, something else has to 
give.
    Mrs. Brooks. Thank you.
    Ms. Schaper?
    Ms. Schaper. I think Sandy answered it exactly as I would.
    Mrs. Brooks. Thank you very much.
    I yield back. Thank you.
    Chairman Rokita. Thank the gentlelady.
    And we will now recognize Mrs. Davis for any closing 
remarks.
    Mrs. Davis. Thank you, Mr. Chairman.
    And again, I appreciate you all being here.
    I want to go back for just a second because I think when we 
talk about the competitive foods and the standards that the 
USDA has put out, we sometimes forget that there is a reason 
why we don't want kids having sugar drinks because that 
really--while it provides them the calories--it doesn't provide 
them a lot more and we may be encouraging them in many ways to 
have that as a greater habit in their diet, and that is a 
concern.
    Dr. Wootan, could you just very quickly--why should we be 
concerned about this because it is easier--we all know and 
especially with young children we tend to put, you know, kids 
love cheese and yet, you know, cheese, as a fat is something 
that--it should be limited in a young child's diet, not 
necessarily at the extent that they have today. Why is all of 
this important?
    Dr. Wootan. Well, good nutrition is so important in 
childhood for the growth and development of the child now. You 
know, so they are ready to learn at school and that to just 
meet their basic nutrition needs. But also, most of the 
diseases that are so costly and that affect us as adults like 
heart disease and cancer and diabetes, these are very long-
term, chronic diseases that start when you are young. And so 
eating well now helps determine, you know, whether or not you 
end up with a heart attack, you know, is it going to be at 40 
or 50 or 60.
    It also teaches good habits. You know, we don't want to 
teach kids one thing in the classroom and then teach them 
something very different in the cafeteria or in the hallway 
through the vending machines, and so cultivating and teaching 
good habits over a lifetime helps children to eat better 
throughout their life.
    Mrs. Davis. Thank you.
    And I apologize, Mr. Chairman. With a closing statement, I 
did ask a question, and I think just trying to summarize--it is 
a difficult I think often because we are dealing with budgets 
and a lot of constraints and I am very sympathetic to that, but 
I would hope that we would look to the best practices to the 
extent that we can and provide the kind of support that is 
necessary and I think a lot of that is out there.
    Thank you very much.
    Chairman Rokita. Thank you, Mrs. Davis.
    For my closing remarks, I just want to say two things. 
First of all, Mr. Thompson, was called away and will be 
submitting questions for the record and perhaps some other 
materials. So we look forward to that as being a part of the 
record and hopefully you will engage in answering those 
questions for him as well.
    And then the second point would be to simply say thank you. 
Clearly you are on the front lines. Clearly you are subject 
matter experts. Clearly you have the interest of America's 
children first and foremost at heart.
    And as someone who represents 700,000 people, as long as on 
behalf of this entire committee we thank you for that interest. 
We share your interest. We share your concern, and we are going 
to have future hearings related subject matter to the food 
programs in our nation's schools in the months to come.
    So with that, seeing no more business before the committee, 
this hearing is adjourned. Thank you.
    [Additional submission by Hon. Susan A. Davis, a 
Representative in Congress from the State of California, 
follows:]

            Prepared Statement of Otha Thornton, President,
                  National Parent Teacher Association

    The National PTA submits this testimony to the United States House 
of Representatives Committee on Education and the Workforce for the 
committee hearing on School Meal Regulations: Discussing the Costs and 
Consequences for Schools and Students.
    National PTA comprises millions of families, students, teachers, 
administrators, and business and community leaders devoted to the 
educational and overall success of children. As the nation's oldest and 
largest child advocacy organization, PTA is a powerful voice for all 
children, a relevant resource for families, schools, and communities, 
and a strong advocate for public education. With over 22,000 local 
units around the country, PTA members have firsthand experience of the 
daily challenges and successes within school buildings.
    PTA has long sought to improve child nutrition and wellness and 
prides itself on having been instrumental in the formation of federal 
policy in this area since its inception in 1897. A fundamental 
component of PTA's mission has always been to preserve children's 
health and protect them from harm. As early as 1899, the National 
Congress of Mothers advocated for a national health bureau to provide 
families and communities with health information. Its sustained efforts 
bore fruit when the Children's Bureau was established in 1912 as a part 
of the U.S. Public Health Service.
    In 1923, PTA worked to ensure the provision of hot lunches in 
schools--and launched our own nationwide hot lunch program in mid-
1940s. In the same decade and throughout the 1950s, we were involved in 
the establishment and expansion of the school milk programs. We also 
worked to ensure the passage of both the National School Lunch Act and 
the Child Nutrition Act.
    In the 2004, PTA and our coalition partners fought successfully for 
the inclusion of language mandating the creation of local school 
wellness policies in the Child Nutrition and WIC Reauthorization Act. 
These wellness policies provide parents, students, school nutrition 
representatives, school board members, school administrators, and the 
general public the opportunity to formulate local policies that are 
tailored to the specific needs of their communities. We advocated for 
further involvement of parents and other stakeholders in local wellness 
policies when the legislation was reauthorized again in 2010.
    We mention these past accomplishments not only to underscore PTA's 
commitment to the well-being of our nation's children, but also to 
provide a historical context for where we are today and why we support 
updated nutrition standards for school meals that went into effect in 
2012.
    Furthermore, the status of our children's health has changed since 
the establishment of the original school lunch program. The National 
School Lunch Program was originally established to support military 
conscription during the aftermath of the Great Depression, when many 
young Americans were being turned down for service due to their being 
underweight. Several decades later, we find ourselves facing very 
different circumstances for our military recruits. A report released in 
2012 by Mission: Readiness--Still Too Fat to Fight--showed that one in 
four young people cannot join the military due to being overweight or 
obese.
    Beyond military recruits, in the last 30 years, childhood obesity 
rates have dramatically increased. According to Trust for America's 
Health 2012 report F as in Fat, the obesity rate for young children in 
1980 was 6.5 percent. In 2008, our nation's childhood obesity rate for 
the same age group was at nearly 19.6 percent. Times have changed--and 
we must too.
    PTA was a strong supporter of a provision in the 2010 
reauthorization which required the United States Department of 
Agriculture (USDA) to update the nutrition standards for the school 
lunch and breakfast programs. As we are all aware, these updated 
nutrition standards for the school lunch were implemented in July 2012. 
PTA worked to support schools in this transition, including National 
PTA's creation of the Parent's Guide to the National School Lunch 
Program--a document designed to inform parents of the changes and 
assist them in supporting schools and their children with the 
transition to healthier school meals. PTA members in local schools 
throughout the country worked to support schools during this period.
    As parents, PTA members are acutely aware that change can be 
difficult. Transition periods are challenging. The case of updating 
nutrition standards for school meals is no different. Many schools 
around the country were already serving healthier meals, others 
transitioned relatively seamlessly, but some schools have struggled. As 
we move forward, we must all work together to ensure successful 
implementation of healthier school meals.
    For example, in recognition of across-the-board challenges and 
unintended consequences, the USDA moved to provide additional 
flexibility to schools in meeting the whole grain and meat/meat 
alternative maximum and minimums. National PTA viewed this as a 
positive, proactive approach to identify challenges and find solutions 
in an effective way. In Congress, Representatives Tom Latham and Mike 
McIntyre introduced legislation--The School Food Modernization Act--to 
provide training support for school food personnel and resources for 
schools to obtain much-needed cafeteria equipment to help prepare and 
serve healthier meals.
    Since our inception, PTA members have worked side by side with 
schools and community officials to improve the lives of children and 
families. As schools and food service personnel implement serving 
healthier school meals, we offer our full support. PTA members are 
ready and willing to assist schools in making sure this transition is 
successful.
    Despite the challenges schools have experienced and those that may 
be ahead, ultimately, our children are worth it. The facts about 
childhood obesity rates in this country are undeniable, and PTA's 
belief that our nation's children deserve healthy, nutritious meals in 
school is a core tenant of the PTA mission.
    National PTA respectfully asks that as we work together to improve 
school foods, we do not make decisions which will reverse the work 
being done to provide children with healthier, nutritious meals that 
allow them to go to class ready to learn. National PTA commends the 
committee's work to highlight challenges schools are facing across the 
country and looks forward to continuing work with you to improve our 
nation's education system.
                                 ______
                                 
    [Additional submission by Hon. Marcia L. Fudge, a 
Representative in Congress from the State of Ohio, follows:]

                                 National Harbor, MD, May 28, 2013.
Hon. John Kline, Chairman; Hon. George Miller, Ranking Member,
Committee on Education and the Workforce, Washington, DC 20515.
    Dear Chairman Kline and Rep. Miller: We are writing to endorse H.R. 
1303 and ask the Committee to take up and report the bill as soon as 
possible. ``The School Nutrition Flexibility Act'' is a bipartisan 
piece of legislation which currently has over 30 cosponsors.
    As you know, H.R. 1303 would permanently eliminate the weekly grain 
and protein maximums while maintaining the calorie maximums in the 
National School Lunch and School Breakfast Programs. With this bill, 
Congress will protect the nutritional integrity of the school lunch 
standards while giving local schools and industry providers more 
flexibility to design healthy menus that meet standards and student 
tastes. It is a simple, yet powerful step Congress can take to ease the 
increasing burden not only on those who prepare the meals, but those 
who provide the food and equipment resources utilized by the school 
nutrition professionals while still maintaining the integrity of 
serving healthy and nutritious meals to kids. While USDA has extended 
the temporary relief into School Year 2013-2014, we need the permanent 
elimination to move forward with meal planning and production.
    We also support Section 3 of the bill which addresses the paid meal 
equity section of the current law. Current law now requires for the 
first time since 1946, that certain School Food Authorities annually 
increase their paid meal prices regardless of their financial solvency. 
H.R. 1303 would amend the law by narrowing its scope to those School 
Food Authorities that have a negative fund balance at the end of the 
previous school year. When setting meal prices, school boards take into 
account local food and labor costs and what families are able and 
willing to pay. We note that participation in the paid meal program is 
down this year and believe this new requirement is a contributing 
factor.
    We hope the Committee will move promptly on this important 
legislation. There is no cost associated with the bill.
            Sincerely,
                                       Sandra E. Ford, SNS,
                                                         President.
                                 ______
                                 
    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                     Washington, DC, July 29, 2013.
Ms. Sandra Ford, Director of Food and Nutrition Services,
Manatee County School District, 215 Manatee Avenue West, Bradenton, FL 
        34205.
    Dear Ms Ford: Thank you for testifying at the June 27, 2013 hearing 
on ``School Meal Regulations: Discussing the Costs and Consequences for 
Schools and Students'' I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than August 19, 2013 for inclusion in the final hearing record. 
Responses should be sent to Mandy Schaumburg or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                      chairman todd rokita (r-in)
    1. What are your greatest concerns with the meal pattern rule, the 
competitive foods rule, and/or the other rules that have been issued as 
a result of the Healthy, Hunger-Free Kids Act? Is it similar to what 
school districts reported to GAO? Are there differences in how the 
rules impact programs with low percentages of free and reduced-price 
students and those with higher percentages?
    2. Do you think the changes occurring in the school lunch and 
breakfast programs will result in healthier options for your students? 
Or do you think you could have ensured students had healthy choices 
without imposing such enormous costs on your program?
                        rep. marcia fudge (d-oh)
    I consider myself to be a staunch defender of the needs of those 
who suffer from food insecurity, particularly children. Many of the 
regulations required by the National School Lunch & Breakfast Program 
are being implemented by school districts in the name of reducing the 
incidence of childhood obesity in this country, a true challenge that 
deserves our full attention. We also have a hunger epidemic that must 
be addressed.
    The National School Lunch & Breakfast Program is one of our 
nation's largest feeding programs. If our school meals programs are 
struggling financially to implement new regulations, then we are 
putting school children who depend on these meals at risk. There are 
children who leave school after Friday lunch and don't receive their 
next meal until Monday's school breakfast. It is our responsibility and 
our duty to ensure that these regulations are having the intended 
effect.
    1. Do you believe USDA's National School Lunch & Breakfast Program 
regulations, both current and pending, are helping you achieve the goal 
of providing healthy meals to children in need? If no, what are some of 
your concerns?
    2. I've heard apprehensions about the increased costs associated 
with implementation of these regulations. Many schools are indicating 
that their costs go beyond the estimated costs proposed by USDA, and 
the 6 cent additional funding per meal is not covering the cost. What 
is the breaking point in terms of how much financial strain schools can 
handle before your ability to serve children in need becomes 
threatened?
    Earlier this year my colleague Rep. Stivers and I introduced H.R. 
1303, the School Nutrition Flexibility Act, to address some of the 
concerns we had heard from our local school nutrition experts. One of 
the top concerns we heard echoed again and again was that schools were 
finding it extremely difficult to serve meals that fit within weekly 
minimum and maximum serving ranges for the grains and meat portions of 
the USDA standards. While USDA has responded to this concern through 
the means of a temporary waiver, the School Nutrition Flexibility Act 
provides a long-term solution for this issue by calling for the 
permanent elimination of the maximums on grains.
    3. In your testimony, you stated that the weekly limits on grains 
and proteins served with school meals have restricted some very healthy 
school menu items that happen to be student favorites. What are some 
examples of these items and what potential impact could it have on a 
student's desire to participate in the school lunch program?
    4. Some critics of the School Nutrition Flexibility Act believe 
that a permanent elimination of the protein/grain standards is 
unnecessary because USDA, when the time comes, could provide a waiver 
for the 2014-2015 school year. Please explain why it is more prudent to 
have a permanent solution for this issue rather than a temporary fix.
    The School Nutrition Flexibility Act addresses another issue that 
has proven to be difficult for local schools: the paid meal equity 
provision. The Healthy, Hunger Free Kids Act allows the federal 
government to set the price of a school lunch for the first time since 
1946. As a result, schools participating in the School Lunch Program 
are now required to increase the price of their lunch. Some communities 
are struggling to pay the increase and participation in the school 
lunch program has declined in some schools.
    5. Why should we be concerned about the drop off in participation 
in the school lunch program for paying students, and what impact does 
this situation have on students who receive a free lunch?
                                 ______
                                 

       Ms. Ford's Response to Questions Submitted for the Record

                      chairman todd rokita (r-in)
    Q: What are your greatest concerns with the meal pattern rule, the 
competitive foods rule, and/or the other rules that have been issued as 
a result of the Healthy, Hunger Free Kids Act? Is it similar to what 
school districts reported to GAO?

    I supported updating the meal pattern to ensure school meals meet 
the Dietary Guidelines for Americans. But as we all know, complex 
regulations can lead to unintended consequences.
    School meal programs walk a tightrope between meeting standards, 
managing costs and maintaining participation. In Manatee County 
Schools, the cost of meeting new regulatory requirements has surpassed 
the additional 6 cent reimbursement, and student participation has 
declined due to changes to the menu. I am hopeful participation will 
rebound this fall, but new breakfast and competitive food regulations 
could present similar challenges, threatening the balance. I am 
attaching our end of the year dashboard which shows a comparison of our 
programs. Our revenue is the greatest concern. We eliminated 15 staff 
positions--either vacant or relocated staff.
    I was pleased to hear Dr. Janey Thornton, Deputy Under Secretary 
for Food, Nutrition and Consumer Services, announce during School 
Nutrition Association's Annual National Conference in July that USDA 
will permanently eliminate weekly maximums on grains and proteins by 
the end of the calendar year. I hope Congress and USDA will continue to 
respond to regulatory challenges as they arise during implementation.

    Q: Are there differences in how the rules impact programs with low 
percentages of free and reduced-price students and those with higher 
percentages?

    Every school meal program is unique and faces different challenges. 
However, as a general rule, students who are not dependent on free or 
reduced-price school meals are more likely to have the means to bring 
food from home or seek an alternative venue to purchase their meals if 
they become dissatisfied with the options in their school cafeteria. As 
a result, schools with very low free or reduced-price participation can 
experience more significant fluctuations in participation (and revenue) 
in response to menu changes. Our schools with low free and reduced are 
faced with even greater challenges to keep the participation up--
looking for creative ways to market and to provide a customized menu 
selection.

    Q: Do you think the changes occurring in the school lunch and 
breakfast programs will result in healthier options for your students? 
Or do you think you could have ensured students had healthy choices 
without imposing such enormous costs on your program?

    Manatee County Schools has always provided healthy choices for our 
students. The new meal pattern's requirement to serve more fruits and 
vegetables is resulting in more students taking fruits and vegetables, 
but it does pose an additional cost to school meal programs.
                           rep. marcia fudge
    Q. Do you believe USDA's National School Lunch & Breakfast Program 
regulations, both current and pending, are helping you achieve the goal 
of providing healthy meals to children in need? If no, what are some of 
your concerns?

    Updating the meal pattern for the National School Lunch and 
Breakfast Programs was a critical step to ensure school meals meet the 
current Dietary Guidelines for Americans. These regulations guarantee 
all students have access to healthy, well-balanced meals at school.
    However, complex regulations can lead to unintended consequences. 
School meal programs must walk a tightrope between meeting complicated 
nutrition standards while managing rising costs, and maintaining 
participation. Manatee County Schools has struggled with the cost of 
meeting new regulatory requirements, and we have experienced a decline 
in student participation due to changes to the menu.
    We are hopeful that participation will rebound this fall as 
students adjust to menu changes and as we work to identify new menu 
items that meet the new requirements and appeal to student tastes. Yet 
at the same time, I am concerned new breakfast and competitive food 
regulations could present similar challenges, threatening the balance.
    The biggest challenge is not being able to react to the first 
change before the second change comes along. Food services programs in 
Manatee County and most districts around the country are businesses. As 
a business, when a change occurs, you evaluate and adjust. Our 
challenge is that before we could complete the process of lunch, we are 
in the midst of a breakfast change.

    Q. I've heard apprehensions about the increased costs associated 
with implementation of these regulations. Many schools are indicating 
that their costs go beyond the estimated costs proposed by USDA, and 
the 6 cent additional funding per meal is not covering the cost. What 
is the breaking point in terms of how much financial strain schools can 
handle before your ability to serve children in need becomes 
threatened?

    Every school meal program faces unique challenges as school 
cafeteria infrastructure and equipment, food, labor and other costs all 
vary dramatically from one community to the next.
    Schools nationwide have experienced rising costs as a result of the 
new regulations, often in excess of the additional 6 cent reimbursement 
provided for meeting the standards. School nutrition professionals are 
still adjusting menus and operational practices to limit costs and to 
restore or increase program participation and revenues.
    Every school meal program has a different ``tipping point,'' but 
with additional breakfast and competitive food standards coming into 
effect in the next two school years, all programs will face a difficult 
challenge to maintain financial stability.

    Q. In your testimony, you stated that the weekly limits on grains 
and proteins served with school meals have restricted some very healthy 
school menu items that happen to be student favorites. What are some 
examples of these items and what potential impact could it have on a 
student's desire to participate in the school lunch program?

    The weekly restrictions on grains and proteins under the meal 
pattern presented significant barriers to menu planning, including 
limiting healthy options like daily sandwiches served on whole grain 
bread and entree salads topped with lean meat and low fat cheese. As 
some of these popular options were removed from the menu or served on 
only select days, Manatee County Schools experienced a decline in 
student participation.
    I would like to thank you for your leadership in introducing H.R. 
1303 with Rep. Stivers to address these concerns and eliminate the 
weekly grain and protein restrictions. I was pleased to hear Dr. Janey 
Thornton, Deputy Under Secretary for Food, Nutrition and Consumer 
Services, announce during School Nutrition Association's Annual 
National Conference in July that USDA will permanently eliminate these 
weekly maximums by the end of the calendar year. I hope Congress and 
USDA will continue to respond to regulatory challenges as they arise 
during implementation.

    Q. Some critics of the School Nutrition Flexibility Act believe 
that a permanent elimination of the protein/grain standards in 
unnecessary because USDA, when the time comes, could provide a waiver 
for the 2014-2015 school year. Please explain why it is more prudent to 
have a permanent solution for this issue rather than a temporary fix.

    From sandwich buns to breakfast cereals, school meal programs 
depend on our industry partners to provide foods and beverages that 
meet nutrition standards and student tastes. All of these products go 
through extensive testing before they are served in a school cafeteria. 
Our industry partners invest in R&D to identify recipes that meet the 
whole grain standards and food safety requirements, but still have the 
look and taste our students expect.
    Temporary regulations leave our industry partners guessing. Do they 
phase out their old product line and invest in developing products to 
meet new standards? Or will USDA issue another reprieve so that schools 
will be clamoring for their old product line? By promising to 
permanently eliminate the weekly grain/protein maximums, USDA is 
providing industry and school nutrition professionals with clear 
direction.

    Q. Why should we be concerned about the drop off in participation 
in the school lunch program for paying students, and what impact does 
this situation have on students who receive a free lunch?

    Many students who drop out of the National School Lunch and 
Breakfast Programs end up purchasing their meals from nearby fast food 
restaurants or other venues that do not offer the healthy, well-
balanced meals that school meal programs provide. Declines in student 
participation also reduce revenue for school meal programs, hampering 
the program's ability to make further improvements to menus.
    School meal programs strive to serve all students, not just those 
who rely on free or reduced-price meals. When paying students drop out 
of the National School Lunch and Breakfast Programs, the students who 
depend on these meals as a key source of nutrition can feel singled out 
or stigmatized just by entering the cafeteria.
                                 ______
                                 
                                             U.S. Congress,
                                     Washington, DC, July 29, 2013.
Ms. Megan Schaper, Director of Food and Nutrition Services,
State College Area School District, 131 W. Nittany Ave., State College, 
        PA 16801.
    Dear Ms Schaper: Thank you for testifying at the June 27, 2013 
hearing on ``School Meal Regulations: Discussing the Costs and 
Consequences for Schools and Students'' I appreciate your 
participation.
    Enclosed are additional questions submitted by members of the 
subcommittee after the hearing. Please provide written responses no 
later than August 19, 2013 for inclusion in the final hearing record. 
Responses should be sent to Mandy Schaumburg or Dan Shorts of the 
committee staff who can be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
committee.
            Sincerely,
                                     Todd Rokita, Chairman,
        Subcommittee on Early Childhood, Elementary, and Secondary 
                                                         Education.
                      chairman todd rokita (r-in)
    1. Ms. Schaper, what has been the impact of these new requirements 
on your district's administrative costs? How much have you had to pay 
for training or hiring new employees? Have you lost any food service 
employees as a result of the new regulations?
    2. How many food vendors does your school district work with on the 
school meal programs? Have you seen any of the vendors stop--or do you 
anticipate any stopping--offering products for school lunch and 
breakfast programs?
                        rep. marcia fudge (d-oh)
    I consider myself to be a staunch defender of the needs of those 
who suffer from food insecurity, particularly children. Many of the 
regulations required by the National School Lunch & Breakfast Program 
are being implemented by school districts in the name of reducing the 
incidence of childhood obesity in this country, a true challenge that 
deserves our full attention. We also have a hunger epidemic that must 
be addressed.
    The National School Lunch & Breakfast Program is one of our 
nation's largest feeding programs. If our school meals programs are 
struggling financially to implement new regulations, then we are 
putting school children who depend on these meals at risk. There are 
children who leave school after Friday lunch and don't receive their 
next meal until Monday's school breakfast. It is our responsibility and 
our duty to ensure that these regulations are having the intended 
effect.
    1. Do you believe USDA's National School Lunch & Breakfast Program 
regulations, both current and pending, are helping you achieve the goal 
of providing healthy meals to children in need? If no, what are some of 
your concerns?
    2. I've heard apprehensions about the increased costs associated 
with implementation of these regulations. Many schools are indicating 
that their costs go beyond the estimated costs proposed by USDA, and 
the 6 cent additional funding per meal is not covering the cost. What 
is the breaking point in terms of how much financial strain schools can 
handle before your ability to serve children in need becomes 
threatened?
    Earlier this year my colleague Rep. Stivers and I introduced H.R. 
1303, the School Nutrition Flexibility Act to address some of the 
concerns we had heard from our local school nutrition experts. One of 
the top concerns we heard echoed again and again was that schools were 
finding it extremely difficult to serve meals that fit within weekly 
minimum and maximum serving ranges for the grains and meat portions of 
the USDA standards. While USDA has responded to this concern through 
the means of a temporary waiver, the School Nutrition Flexibility Act 
provides a long-term solution for this issue by calling for the 
permanent elimination of the maximums on grains.
    3. Some critics of the School Nutrition Flexibility Act believe 
that a permanent elimination of the protein/grain standards is 
unnecessary because USDA, when the time comes, could provide a waiver 
for the 2014-2015 school year. Please explain why it is more prudent to 
have a permanent solution for this issue rather than a temporary fix.
    The School Nutrition Flexibility Act addresses another issue that 
has proven to be difficult for local schools: the paid meal equity 
provision. The Healthy, Hunger Free Kids Act allows the federal 
government to set the price of a school lunch for the first time since 
1946. As a result, schools participating in the School Lunch Program 
are now required to increase the price of their lunch. Some communities 
are struggling to pay the increase and participation in the school 
lunch program has declined in some schools.
    4. Why should we be concerned about the drop off in participation 
in the school lunch program for paying students, and what impact does 
this situation have on students who receive a free lunch?
                                 ______
                                 

      Ms. Schaper's Response to Questions Submitted for the Record

                      chairman todd rokita (r-in)
    1. What has been the impact of these new requirements on your 
district's administrative costs? How much have you had to pay for 
training or hiring new employees? Have you lost any food service 
employees as a result of the new regulations?

    My district did not spend more on training or administrative costs 
than we have in previous years. We cannot spend more money than we 
bring in from student sales. Our budget is tight and we simply aren't 
able to spend funds that are not available. Rather, it is a matter of 
what other training opportunities and administrative activities had to 
be forgone in order to have the time and resources to implement the new 
regulations.
    The one day that we have available for staff training each year had 
to be solely dedicated to the new regulations to the exclusion of 
ServSafe food safety training, marketing and customer service training, 
and technology and computer skills training that would have otherwise 
been priorities.
    Similarly, I was not able to hire another administrator to help 
implement the standards and submit for certification. Instead, I 
directed my time and energy to those tasks to the exclusion of creative 
and successful initiatives that my department had promoted in the past. 
I did not have the time available to coordinate Chefs Move to Schools 
events. I was not able to coordinate parent volunteers to provide taste 
testing in my cafeterias. Our involvement with the school gardens and 
other farm-to-school initiatives had to be reduced. Instead of using my 
time to proactively educate children about healthy foods, I had to 
devote my time to researching and rewriting purchase specifications, 
rewriting recipes, producing new cookbooks, reviewing all of my 
allergens in light of the new recipes, determining meat and grain 
contributions, recalculating nutrient analysis, and completing USDA 
paperwork to submit for certification.
    One of my most dependable and dedicated supervisors decided not to 
continue in school food service at the end of the year. After 24 years 
of service, she stated that it ``just wasn't fun anymore.'' Of course 
children's health and well-being should take precedence to my staff 
having fun, but it should also be possible to develop reasonable 
regulations that promote health and well-being without being so 
difficult for those in the schools to implement.

    2. How many food vendors does your school district work with on the 
school meals programs? Have you seen any of the vendors stop--or do you 
anticipate any stopping--offering products for school lunch and 
breakfast programs?

    We purchase foods produced by dozens of different manufacturers. 
Those items come to us from two large food service distributors, one 
dairy, one bakery, and six or seven small, local businesses. I believe 
that the large manufacturers and distributors have the resources and 
motivation to continue to supply schools. However, the cost of 
continuously reformulating products to meet changing standards are 
being passed on to us. Some of the small businesses who we patronize 
are not able to invest the resources to develop products to meet USDA 
standards. Our sales volume is not large enough and there simply is not 
sufficient interest from their retail customers for items that meet 
USDA regulations. Our efforts to support local businesses will be 
diminished.
                        rep. marcia fudge (d-oh)
    1. Do you believe USDA's National School Lunch & Breakfast Program 
regulations, both current and pending, are helping you achieve the goal 
of providing healthy meals to children in need?

    No, my program was providing very healthy meals that students 
enjoyed prior to the implementation of these regulations. The 
regulations have simply raised costs and driven paying customers from 
the program. Serving fewer paying customers reduces the funds available 
to operate quality school cafeterias for all students. Because the 
funding for school cafeterias is directly tied to participation, it is 
critical that enough students choose to patronize the school cafeteria 
in order to cover our costs. Further, when paying customers leave the 
program, students receiving free and reduced priced meals are less 
comfortable accessing this benefit due to the stigma associated with 
being eligible for subsidized meals.
    Minimum standards are necessary to ensure that school meals are 
healthful. Simply enforcing the previous, reasonable meal regulations 
would have remedied the problems of poorly run programs. Providing $.06 
as incentive for meeting tough new standards would be unnecessary if 
USDA simply enforced the former guidelines by withholding all funding 
from schools that failed to provide healthful meals.

    2. I've heard apprehensions about the increased costs associated 
with implementation of these regulations. Many schools are indicating 
that their costs go beyond the estimated costs proposed by USDA, and 
the 6 cent additional funding per meal is not covering the cost. What 
is the breaking point in terms of financial strain schools can handle 
before your ability to serve children becomes threatened?

    I can't speak to the breaking point for all programs but most 
schools are facing difficult budgetary circumstances. The weak economy 
and funding cuts as a result of sequestration resulted in less revenue 
for school programs. Further, medical and pension cost increases are 
out pacing income growth. Most schools are already cutting programs and 
simply do not have excess funds to support the school cafeterias.
    If my program is unable to remain self-supporting, we will have to 
find ways to decrease costs. As only 15% of our students are eligible 
for subsidized meals, our breakfast program is not utilized by the 
majority of our students and loses money. We currently subsidize the 
program with funds from lunch and a la carte sales. We may need to 
eliminate the breakfast program to keep the overall program fiscally 
solvent. While this won't affect the majority of my students, it will 
greatly impact those whose families need this program the most. I 
expect to have to make this decision after the 2014-15 school year when 
I know exactly how the Smart Snacks in Schools rule affects my 
program's finances.
    The $.06 additional funding is appreciated but it does not cover 
the cost of the new regulations. For example, the additional \1/2\ cup 
of fruit that is needed adds a minimum cost of $.11 (for a juice) up to
    $.29 (for an apple) per meal. Add to this the fact that whole 
grains cost more and that manufacturers are passing on their increased 
costs for reformulating products, schools are spending significantly 
more to provide meals and the federal funding only covers a fraction of 
that increase.

    3. Some critics of the School Nutrition Flexibility Act believe 
that a permanent elimination of the protein/grain standards is 
unnecessary because USDA, when the time comes, could provide a waiver 
for the 2014-15 school year. Please explain why it is more prudent to 
have a permanent solution for this issue rather than a temporary fix.

    The research and development behind each new food item that 
Advance/Pierre brings to market costs $100,000. One of the products 
that Advance/Pierre developed for the start of the 2012-13 school year 
was a 1.5 ounce hamburger that helped schools serve cheeseburgers while 
staying under the protein cap. With the temporary removal of the cap, 
schools are no longer interested in purchasing a hamburger that is that 
small. (A McDonald's single hamburger weighs 2 ounces.) Advance/Pierre 
did not get a fair return on its investment. Manufacturers are not 
willing to produce new products for schools without the assurance that 
the products they develop today will still be wanted a few years from 
now.

    4. Why should we be concerned about the drop off in participation 
in the school lunch program for paying students, and what impact does 
this situation have on students who receive free lunch?

    The profit margin on school meals is extremely thin. In order for a 
school nutrition department to break-even financially (or maybe 
generate enough extra money to replace an oven or refrigerator), we 
need to sell as many meals as possible. The funds received for each 
meal (lunch price or reimbursement rate) are adequate to cover costs 
only if sufficient sales volume can be generated. When 10% of paying 
students decide not to purchase school meals, food costs go down 
proportionally but the cost of labor, utilities, cleaning supplies, 
equipment repair and replacement, etc. remains unchanged.
    Further, as mentioned earlier, schools without local resources to 
support the school cafeteria will have to make difficult decisions. 
Eliminating programs that aren't self-supporting, like the school 
breakfast program in many schools, is a very real possibility. Some 
schools may opt to leave the national program altogether. In that 
circumstance, there is no guarantee that low income families will 
receive help with meals at school. And the meals served to all students 
would not be subject to any nutrition standards what-so-ever.
    Finally, schools have worked hard over the years to remove the 
social stigma that can be associated with receiving subsidized school 
meals by eliminating the overt identification of eligible students. If 
paying students opt out of the program, leaving only those who have no 
other choice, students who need program benefits may choose not to 
participate. The program in and of itself will identify them as poor.
    Thank you for this opportunity to respond to your questions.
                                 ______
                                 
    [Whereupon, at 11:18 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
